                                                                             Report No. DODIG-2013-120




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 23, 2013




                     Army Needs Better Processes
                     to Justify and Manage
                     Cost-Reimbursement Contracts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Army Needs Better Processes to Justify and Manage
                                   Cost-Reimbursement Contracts



August 23, 2013                                          Recommendation
Objective                                                We recommend that the Assistant Secretary of the Army for
                                                         Acquisition, Logistics, and Technology (ASA[ALT]) emphasize
We are required to perform this audit in accordance
                                                         the importance of the FAR revisions to contracting personnel
with the FY 2009 National Defense Authorization
                                                         for the use of cost-reimbursement contracts; update Army
Act, section 864, “Regulations on the Use of Cost
                                                         guidance to eliminate the threshold for cost-type contracts
Reimbursement Contracts.” Our objective was to
                                                         and include the other three areas of the interim rule; consider
determine whether the Army complied with interim
                                                         issuing more hybrid contracts so that contract type can
Federal Acquisition Regulation (FAR) revisions
                                                         be selected on each task or delivery order; and establish
on the use of cost-reimbursement contracts
                                                         better communication channels to identify opportunities to
by documenting that approval for the cost-
                                                         transition to firm-fixed-price contracts. We recommend that
reimbursement contract was at least one level above
                                                         the Director, Army Contracting Command Redstone, establish
the contracting officer; that cost-reimbursement
                                                         procedures for contracting officers to document the possibility
contracts were justified; how the requirements
                                                         of transitioning to firm-fixed-price contracts each time a
under contract could transition to firm-fixed-price
                                                         cost-reimbursement contract is used. We recommend that
in the future; that Government resources were
                                                         the Director of Contracting, Fort Huachuca Army Contracting
available to monitor the cost-reimbursement
                                                         Command – Aberdeen Proving Ground, reemphasize the
contract; and that contractors had an adequate
                                                         requirement that contracting officers should determine that
accounting system in place during the entire
                                                         contractors have an adequate accounting system in place
contract. This is the second in a planned series of
                                                         before issuing a cost-reimbursement contract.
audit reports on DoD compliance with the interim
rule for the use of cost-reimbursement contracts.
                                                         Management Comments and
Finding                                                  Our Response
Of the 161 contracts reviewed, valued at about           ASA(ALT) agreed and issued the June 19, 2013, memorandum,
$53.3 billion, Army contracting personnel at four        “Implementation Directive for Better Buying Power 2.0
sites did not consistently implement the interim         (BBP 2.0).” ASA(ALT) will also issue a Policy Alert to contracting
rule for 107 contracts, valued at about $10.5 billion.   personnel to emphasize the importance of BBP 2.0. Redstone
Contracting personnel issued contracts that did not      agreed and will include procedures to document the possibility
follow the interim rule because they were unaware        to transition to firm-fixed-price contracts in a Determination
of the rule. As a result, contracting personnel          and Finding. Fort Huachuca agreed and included a requirement
may increase the contracting risk because cost-          for assessing the contractor’s accounting system to be in
reimbursement contracts provide less incentive           pre-award documentation. We consider these comments to
for contractors to control costs. We identified          be responsive. Please see the recommendations table on the
internal control weaknesses for implementing the         back of this page.
interim rule changes regarding the use of cost-
reimbursement contracts.

Visit us on the web at www.dodig.mil

                                                                          DODIG-2013-120 (Project No. D2013-D000CG-0102.000) │ i
                   Recommendations Table
                                                             Recommendations           No Additional
                                   Management                Requiring Comment       Comments Required
                    Assistant Secretary of the Army for                          1.a, 1.b, 1.c, and 1.d
                    Acquisition, Logistics, and Technology
                    Director of Contracting, Army                                2
                    Contracting Command Redstone
                    Director of Contracting, Ft Huachuca
                    Army Contracting Command – Aberdeen                          3
                    Proving Ground




ii │ DODIG-2013-120 (Project No. D2013-D000CG-0102.000)
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                            4800 MARK CENTER DRIVE
                         ALEXANDRIA, VIRGINIA 22350-1500



                                                                           August 23, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Needs Better Processes to Justify and Manage Cost-Reimbursement
         Contracts (Re port No. DoDIG-2013-120)

We are providing this report for your information and use. Of the 161 contracts reviewed,
valued at about $53.3 billion, Army contracting personnel did not consistently implement
the Federal Acquisition Regulation revisions for the use of cost-reimbursement contracts
for 107 contracts, valued at about $10.5 billion . We reviewed contracts at four Army sites.
We are required to perform this audit in accordance with the FY 2009 National Defense
Authorization Act, section 864, "Regulation on the Use of Cost Reimbursement Contracts."
This is the second in a series of audit reports.

We considered management comments on a draft of this report when preparing the final
report. Comments from the Deputy Assistant Secretary of the Army (Procurement), the
Executive Deputy to the Commanding General, Army Materiel Command, on behalf of
the Director, Army Contracting Command-Redstone, and the Director of Contracting,
Fort Huachuca Army Contracting Command-Aberdeen Proving Ground conformed to the
requirements of DoD Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff.      Please direct questions to me at
(703) 604-9077 (DSN 664-9077).




                                             ~~"'-"-'ct u)~
                                                   eline L. Wicecarver
                                              Assistant Inspector General
                                              Acquisition, Parts, and inventory




                                                                                          001JIG·20 l3· .120   I iii
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Interim Rule Requirements and Our Interpretation__________________________________________2
                  Contracts Reviewed______________________________________________________________________________5
                  Calculating Cost-Reimbursement Values of Multiple Award Contracts______________________5
                  The Small Business Innovation Research Program____________________________________________6
                  Review of Internal Controls_____________________________________________________________________7

                  Finding. Sites Visited Inconsistently Implemented
                  the Interim Rule_______________________________________________________________________8
                  More Consistent Documentation Procedures Needed to Fully Implement
                  Federal Acquisition Regulation Revisions _____________________________________________________9
                  Approval One Level Above the Contracting Officer for a Cost-Reimbursement
                  Contract Varied by Site__________________________________________________________________________9
                  Justification Documenting the Use of a Cost-Reimbursement Contract Type
                  Varied by Site___________________________________________________________________________________ 11
                  Documentation to Support Efforts to Transition Subsequent Requirements
                  to Firm-Fixed-Price Contracts Varied by Site________________________________________________ 12
                  Contracting Officials Ensured Government Resources Were Available
                  to Monitor Award ______________________________________________________________________________ 13
                  Adequate Accounting Systems Varied by Site________________________________________________ 14
                  Firm-Fixed-Price Contracts Properly Classified_____________________________________________ 15
                  Conclusion______________________________________________________________________________________ 15
                  Recommendations, Management Comments, and Our Response__________________________ 16




iv │ DODIG-2013-120
Contents (cont’d)
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 19
     Universe and Sample Information_ _____________________________________________________ 20
     Review of Documentation and Interviews_ ____________________________________________ 21
     Use of Computer-Processed Data_______________________________________________________ 22
     Use of Technical Assistance______________________________________________________________ 22
     Prior Coverage____________________________________________________________________________ 22
Appendix B. Federal Acquisition Circular 2005-50 Issued March 16, 2011______________ 24
Appendix C. Contract Compliance with Interim Rule Requirements _ ____________________ 30

Management Comments
Assistant Secretary of the Army for Acquisition, Logistics,
and Technology Comments___________________________________________________________________ 39
Army Materiel Command Comments_________________________________________________________ 43

Acronyms and Abbreviations______________________________________________ 50




                                                                                                     DODIG-2013-120 │ v
                                                                                                                                     Introduction




Introduction
Objectives
Our objective was to determine whether Army contracting personnel complied with
interim Federal Acquisition Regulation (FAR) revisions regarding the use of cost-
reimbursement1 contracts.                   Specifically, we determined whether Army contracting
personnel implemented the interim rule by documenting:

              •	 that approval for the cost-reimbursement contract was at least one level
                  above the contracting officer;

              •	 that the use of the cost-reimbursement contract was justified;

              •	 how the requirements under the contract could transition to firm-fixed-price
                  in the future;

              •	 that Government resources were available to monitor the cost-reimbursement
                  contract; and

              •	 that contractors had an adequate accounting system in place during the
                  entire contract.

We also determined whether Army personnel were intentionally misclassifying
contracts as firm-fixed-price to avoid the increased cost-reimbursement contract
documentation requirements.

We are issuing separate reports for each Service, one report to include the Missile
Defense Agency and the Defense Microelectronics Activity, as well as a summary
report. This is the second report in the planned series of reports and includes contracts
issued by the Army at four sites. The first report of the series, “Air Force Needs
Better Processes to Appropriately Justify and Manage Cost-Reimbursable Contracts”
(Report No. DODIG-2013-059), was issued on March 21, 2013. See Appendix A for the
scope and methodology and prior coverage related to the objectives.


Background
Section 864 of the FY 2009 National Defense Authorization Act, P.L. 110-417, requires
FAR revisions regarding the documentation of decisions and approvals necessary


	1	
      We use “cost reimbursement” to describe any type of contract other than firm-fixed-price contracts throughout the report,
      such as labor hour and time and materials contracts.




                                                                                                                                  DODIG-2013-120 │ 1
Introduction



                 before issuance of other than firm-fixed-price contracts and the DoD Inspector General
                 to audit DoD’s compliance with the changes within 1 year of policy issuance.
                 Federal Acquisition Circular (FAC) 2005-50, issued March 16, 2011, implemented the
                 required revisions on an interim basis. This interim rule was effective immediately and
                 was not subject to public comment before issuance. FAC 2005-50 amended FAR Part 7,
                 “Acquisition Planning;” FAR Part 16, “Types of Contracts;” and FAR Part 42, “Contract
                 Administration and Audit Services.” The final rule was published in the Federal Register
                 on March 2, 2012, without significant changes that would affect our audit objectives.
                 To promote savings in Federal contracting, contracting personnel should choose the
                 appropriate contract type. See Appendix B for a copy of the interim rule, FAC 2005-50,
                 issued March 16, 2011.


                 Interim Rule Requirements and Our Interpretation
                 We divided our objective into five areas based on the interim rule. We needed to interpret
                 parts of the interim rule for each of these areas to determine what we would accept as
                 adequate documentation in the contract file. Contracting personnel were required by the
                 interim rule to include the justification, approval, and transition areas of our objective
                 in the acquisition planning documentation.      For each of these areas, we accepted
                 documentation anywhere in the contract file because some of the Acquisition Plans
                 were completed before the interim rule. Contracting personnel were not required by the
                 interim rule to document that adequate resources and an adequate accounting system
                 were available specifically within the acquisition planning documentation.


                 Approval
                 Contracting personnel were required by the interim rule to obtain approval of a cost-
                 reimbursement contract at least one level above the contracting officer. FAC 2005-50
                 states, “[t]he contracting officer shall document the rationale for selecting the contract
                 type in the written Acquisition Plan and ensure that the plan is approved and signed
                 at least one level above the contracting officer.” Contracting personnel were required
                 by the interim rule to document this approval in the Acquisition Plan. We accepted
                 any documentation in the contracting files that stated the contract type was cost-
                 reimbursement and was reviewed and signed by an Army official above the contracting
                 officer as evidence of having met the interim rule requirement.


                 Justification
                 Contracting personnel were required by the interim rule to justify the use of a cost-
                 reimbursement contract. FAC 2005-50 states:




2 │ DODIG-2013-120
                                                                                              Introduction



            [a]cquisition personnel shall document the acquisition plan with
            findings that detail the particular facts and circumstances, (e.g.,
            complexity of the requirements, uncertain duration of the work,
            contractor’s technical capability and financial responsibility, or adequacy
            of the contractor’s accounting system), and associated reasoning
            essential to support the contract type selection. . . .


Contracting personnel were required by the interim rule to document the justification
in the Acquisition Plan. We determined that Army contracting personnel followed the
interim rule by completing a Determination and Finding memorandum on contract type
for inclusion in the contract file or included a discussion of research and development
efforts with results that cannot be precisely described in advance.


Transition
Contracting personnel were required by the interim rule to document the potential of
cost-reimbursement contracts to transition to firm-fixed-price contracts.

FAC 2005-50 states:

            For each contract (and order) contemplated, discuss the strategy
            to transition to firm-fixed-price contracts to the maximum extent
            practicable. During the requirements development stage, consider
            structuring the contract requirements, e.g., contract line items (CLINS),
            in a manner that will permit some, if not all, of the requirements to
            be awarded on a firm-fixed-price basis, either in the current contract,
            future option years, or follow-on contracts.


We interpreted this section of the interim rule to require an explanation of the
potential to transition to a firm-fixed-price contract or a justification as to why
the particular effort will never be able to transition to a firm-fixed-price contract.
Contracting personnel were required by the interim rule to document this strategy in
the Acquisition Plan. In addition to areas where contracting personnel documented
that future work will transition to firm-fixed-price, we determined that contracting
personnel were following the interim rule if they issued contracts that had both
firm-fixed-price and cost-reimbursement contract line item numbers along with a
statement in the contract file that allowed the firm-fixed-price contract line item numbers
to be used when appropriate. We also determined that contracts noting that the award
will not be able to transition to a firm-fixed-price contract for various reasons met
the intent of the interim rule.




                                                                                          DODIG-2013-120 │ 3
Introduction



                 Adequate Resources
                 Contracting personnel were required by the interim rule to document that adequate
                 resources are available to manage a cost-reimbursement contract. FAC 2005-50 states:

                            A cost-reimbursement contract may be used only when—Adequate
                            Government resources are available to award and manage a contract
                            other than firm-fixed-priced (see 7.104(e)) including— (i) Designation
                            of at least one contracting officer’s representative (COR) qualified in
                            accordance with 1.602–2 has been made prior to award of the contract
                            or order.


                 We interpreted this section of the interim rule to require evidence of an appropriate
                 contracting officer’s representative (COR) or similarly qualified individual being assigned
                 to the contract. We obtained the COR nomination letter, signed acceptance by the COR,
                 and COR training documents. Contracting personnel were not required by the interim
                 rule to document this evidence in any specific location of the contract file. Although
                 assigning a COR to the contract identifies an individual to manage a contract, it does
                 not always indicate that adequate Government resources are available to monitor the
                 contract as required by the interim rule. We identified the assignment of a COR on the
                 contracts rather than testing the adequacy of the CORs assigned.


                 Adequate Accounting System
                 Contracting personnel were required by the interim rule to determine the adequacy
                 of the contractor’s accounting system during the entire period of performance for
                 cost-reimbursement contracts. FAC 2005-50 states, “Determine the adequacy of the
                 contractor’s accounting system. The contractor’s accounting system should be adequate
                 during the entire period of contract performance.” We interpreted this section of the
                 interim rule to require documentation that the contracting officer concluded the
                 accounting system was adequate. At a minimum, we required a statement in the file
                 that the accounting system was adequate based on information from Defense Contract
                 Audit Agency (DCAA) or Defense Contract Management Agency officials responsible
                 for monitoring the contractor. We also accepted the contracting officer’s conclusion
                 or other documents, such as rate verifications and e-mails, from DCAA and Defense
                 Contract Management Agency as adequate documentation. We focused our audit on
                 identifying whether the contracting officer made a determination that the accounting
                 system was adequate at contract award, rather than during the entire period of
                 performance, as required by the interim rule.




4 │ DODIG-2013-120
                                                                                                        Introduction



Contracts Reviewed
Our     Federal    Procurement       Data    System–Next      Generation      queries     identified
2,925 cost-reimbursement, labor-hour, or time-and-materials contracts issued by the
Army from March 17, 2011, through February 29, 2012, valued at about $75 billion;
this includes the value of all potential options and any firm-fixed-price portions
of the contracts. To perform the review, we selected four Army sites based on a
combination of cost-reimbursement award amounts and number of cost-reimbursement
contracts issued. The sites visited were Ft. Huachuca Army Contracting Command–
Aberdeen Proving Ground (APG) (referred throughout report as Ft. Huachuca),
Sierra Vista, Arizona; Durham–APG (Durham–APG), North Carolina; Intelligence and
Security Command – Ft. Belvoir (Ft. Belvoir), Ft. Belvoir, Virginia; and Army Contracting
Command – Redstone Arsenal (Redstone Arsenal), Huntsville, Alabama. At the four
sites we reviewed 161 contracts, with cost-reimbursement portions, valued at about
$53.3 billion; 5 of the 161 contracts accounted for about $48.5 billion of this amount.
Table 1 shows the number of basic contracts and the task or delivery orders reviewed and
the contract value at each site.

Table 1. Contracts Reviewed
                                             Task/Delivery                         Contract Value
           Site          Basic Contracts                             Total
                                                 Order                               (billions)*
 Ft. Huachuca                   11                  7                 18                 $3.1
 Durham–APG                     42                  7                 49                   .3
 Ft. Belvoir                     5                 41                 46                 49.3
 Redstone Arsenal               40                  8                 48                   .5
      Totals                    98                 63                 161               $53.2

*Contract value includes potential total of only cost-reimbursement elements. Individual values do
not equal total because of rounding.


Calculating Cost-Reimbursement Values of Multiple
Award Contracts
The values of eight contracts in our sample disproportionately affected the value of the
Army’s cost-reimbursement contracts. This includes the values for five contracts in
our sample issued under the DoD Language Interpretation and Translation Enterprise
program.       The Army Intelligence and Security Command contracting personnel at
Ft. Belvoir developed the program as a multiple-award Indefinite Quantity/Indefinite
Delivery contract for foreign language interpretation and translation services.
Army officials determined the maximum value of this program to be $9.7 billion, which




                                                                                                     DODIG-2013-120 │ 5
Introduction



                 contracting officers could award on orders across the five contracts. Although unlikely,
                 the potential existed that the Army issued orders only on any one of the contracts up
                 to maximum of $9.7 billion. Additionally, contracting officers could award a portion of
                 the $9.7 billion on firm-fixed-price line items. We determined the value of contracts
                 throughout this series of audit reports as the maximum potential cost-reimbursement
                 portion of the contract; therefore, we valued each of these five awards at $9.7 billion each.
                 We expanded our calculated total of cost-reimbursement contracts for Ft. Belvoir and
                 the Army by $38.8 billion because the total of all five contracts cannot exceed the
                 program limit of $9.7 billion unless funding for the program was increased.

                 Ft. Huachuca contracting officials also issued a series of 3 awards valued at $892 million
                 each under a different program. That program also had a maximum of $892 million. This
                 resulted in an additional expansion of about $1.8 billion in contracts that we reviewed
                 at Ft. Huachuca.


                 The Small Business Innovation Research Program
                 The Small Business Innovation Research (SBIR) program is a three-phase program that
                 encourages domestic small businesses to engage in Federal research and development
                 that has the potential for commercialization. The SBIR program was developed to
                 increase small business opportunity in federally funded research and development,
                 stimulate high-tech innovation, and increase private-sector commercialization. The
                 SBIR Program was established under the Small Business Innovation Development Act
                 of 1982; the U.S. Small Business Administration serves as the coordinating agency.
                 Phase I of the program is designed for exploration of the technical merit or feasibility
                 of an idea or technology. A firm-fixed-price contract is almost always used for this
                 phase. Phase II, typically a cost-plus-fixed-fee contract, consists of the research and
                 development work, in which the developer also evaluates commercialization potential.
                 During Phase III, the developer moves toward commercialization of the innovation.
                 SBIR program funds cannot be used for Phase III.             We did not target or avoid
                 SBIR contracts as part of our nonstatistical sample because the interim rule does not
                 include an exception for SBIR contracts.

                 The SBIR Desk Reference for Contracting and Payment, states that according to
                 FAR Subpart 16.3, “Cost-Reimbursement Contracts,” a cost-reimbursement contract may
                 be used only when the contractor’s accounting system is adequate for determining costs
                 applicable to the contract and requires Government surveillance during the performance
                 of the contract.




6 │ DODIG-2013-120
                                                                                             Introduction



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for implementing the changes required by the interim rule regarding
the use of cost-reimbursement contracts. The four sites visited did not always update
local procedures or other guidance for issuing and administering cost-reimbursement
contracts. Specifically, the Army did not always have procedures to approve or justify
the use of cost-reimbursement contracts properly and did not always document the
potential of cost-reimbursement contracts to transition to firm-fixed-price contracts.
Additionally, the Army and other DoD components responsible for monitoring
contractor accounting systems did not always verify the adequacy of the contractor’s
accounting system as required by the interim rule. We will provide a copy of the report to
the senior official in charge of internal controls in the Army.




                                                                                         DODIG-2013-120 │ 7
Finding




                 Finding
                 Sites Visited Inconsistently Implemented the
                 Interim Rule
                 Of the 161 contracts reviewed, valued at about $53.2 billion, Army contracting personnel
                 did not consistently implement the interim rule for 107 contracts, valued at about
                 $10.5 billion.2 Contracting personnel fully met the interim rule on 54 contracts, valued
                 at about $42.8 billion.

                 Specifically, contracting personnel did not:

                               •	 obtain approval for the use of a cost-reimbursement contract for 61 contracts
                                   valued at about $160.2 million.

                               •	 justify the use of a cost-reimbursement contract for 34 contracts, valued at
                                   about $130.5 million.

                               •	 document the possibility of a transition to a firm-fixed-price contract for
                                   57 contracts, valued at about $645.6 million.

                               •	 ensure adequate Government resources were available for 17 contracts,
                                   valued at about $29.6 million.

                               •	 verify the adequacy of the contractor’s accounting system for 33 contracts,
                                   valued at about $9.8 billion.

                 Contracting personnel generally stated they issued contracts that did not meet the
                 interim rule because they were unaware of the interim rule requirements. Specifically for
                 approval, they also stated that the contracts were issued in accordance with established
                 programs suggesting the use of a cost-reimbursement type contract.

                 As a result, contracting personnel continue to issue cost-reimbursement contracts that
                 may inappropriately increase the Army’s contracting risks because cost-reimbursement
                 contracts provide less incentive for contractors to control costs.
                 2



                 	2	
                       The contracts, valued at about $10.5 billion, include one contract in the DoD Language Interpretation and Translation
                       Enterprise program valued at $9.7 billion. This contract was not fully compliant because Army contracting personnel did
                       not provide verification of the adequacy of the contractor’s accounting system.




8 │ DODIG-2013-120
                                                                                                                           Finding



More Consistent Documentation Procedures Needed
to Fully Implement Federal Acquisition Regulation
Revisions
Contracting personnel fully implemented FAR revisions
                                                                                              Contracting
on 54 contracts, valued at about $42.8 billion, of the                                         personnel
161 contracts. Ft. Belvoir accounted for 38 of the                                      implemented portions
54 fully compliant contracts. The cost-reimbursement                                    of the interim rule for
                                                                                       107 of the 161 contracts
portions of the 161 contracts were valued at about
                                                                                         reviewed, but did not
$53.2 billion.3 Contracting personnel implemented                                         consistently include
portions         of    the     interim       rule     for    the     other               documentation in the
107 contracts, valued at about $10.5 billion, but did                                        contract files.
not consistently include documentation in the contract
files to meet the interim rule. Contracting officials described
their contracting procedures and explained their interpretation of the interim rule at
each site visited. When contracting officers documented the elements of the interim
rule, it was in the signed Acquisition Plan, Acquisition Strategy Plan, Price Negotiation
Memorandum, Business Clearance Memorandum, or in the Determination and
Finding of Contract Type.                    We interpreted the interim rule to apply to task or
delivery orders, regardless of the timing of the basic contract award. See Appendix C
for tables showing interim rule compliance by contract. Army contracting officials
should emphasize the importance of the FAR revisions to contracting personnel for the
use of cost-reimbursement contracts in guidance and training courses.


Approval One Level Above the Contracting Officer for a
Cost-Reimbursement Contract Varied by Site
Contracting personnel at Ft. Huachuca and Ft. Belvoir generally met the interim
rule requirement to approve the use of a cost-reimbursement contract one level
above the contracting officer whereas contracting personnel from Durham–APG and
Redstone Arsenal did not always meet the interim rule. Contracting personnel obtained
proper approval for the use of a cost-reimbursement contract for 100 contracts
valued at about $53 billion, of the 161 contracts. In the 61 cases that did not meet the
interim rule requirement, valued at about $160.2 million, contracting officers stated
they were not aware of the new requirements, or believed the type of contract was
already approved, because the contract was issued under the SBIR program or a


	3	
      Contract values used throughout the report refer to cost-reimbursement portions of each contract.




                                                                                                                  DODIG-2013-120 │ 9
Finding



                 Broad Agency Announcement4 that suggested the use of a cost-reimbursement type
                 contract. We interpreted the interim rule to require approval at least one level above
                 the contracting officer. However, a section of the interim rule states that approval is
                 required one level above the contracting officer when a written acquisition plan is
                 required. Table 2 shows the total contracts reviewed at each site and the number of those
                 contracts that did not meet this section of the interim rule.

                 Table 2. Results of Level of Approval One Level Above the Contracting Officer
                                      Site                               Total Contracts                   Did Not Meet Interim Rule
                      Ft. Huachuca                                              18                                         2
                      Durham–APG                                                49                                        39
                      Ft. Belvoir                                               46                                         2
                      Redstone Arsenal                                          48                                        18
                        Totals                                                  161                                       61


                 Durham–APG contracting personnel did not meet the interim rule requirement to
                 document approval of a cost-reimbursement contract one level above the contracting
                 officer for 39 contracts, valued at about $92.9 million, of the 49 contracts. They stated
                 that many of their contracts are issued under broad agency announcements related to the
                 SBIR and the Small Business Technology Transfer programs, which meant that
                 the acquisition planning was conducted before the contract award and that the contract
                 type was approved because the programs consist of cost contracts for research and
                 development. Although the programs suggest the use of certain types of contracts,
                 contracting officers should still document the need to issue a cost-reimbursement
                 contract as required by the interim rule. The Federal Register, volume 77, number 42,
                 Friday, March 2, 2012, discussed comments obtained in response to the cost-
                 reimbursement interim rule and made the rule into a final rule at that time. One
                 commenter recommended that the final rule exempt research and development
                 contracts from the requirements. However, the response explained that there are no
                 exemptions for research and development contracts under the Duncan Hunter National
                 Defense Authorization Act for fiscal year 2009.

                 Redstone Arsenal personnel did not meet the interim rule requirement to document
                 approval of cost-reimbursement contract one level above the contracting officer for
                  18 contracts, valued at about $33.5 million, of 48 contracts. Redstone Arsenal contracting
                 personnel stated they were unaware of the interim rule.

                 	4	
                        A Broad Agency Announcement is used to fulfill needs in scientific study and experimentation geared towards increasing
                        knowledge and understanding that do not focus on specific systems or programs.




10 │ DODIG-2013-120
                                                                                                      Finding



Although Durham–APG did not meet the interim rule for most of the contracts, we are
not going to make a recommendation specific to Durham–APG because we identified
confusion regarding whether contracts in the SBIR and similar programs required
approval on a DoD-wide level. We plan to include a DoD-wide recommendation in the
summary report issued at the completion of this series of reports.


Justification Documenting the Use of a Cost-
Reimbursement Contract Type Varied by Site
Contracting personnel at Ft. Huachuca, Durham–APG, and Ft. Belvoir generally
satisfied the interim rule requirement to justify a cost-reimbursement type contract
whereas contracting personnel at Redstone Arsenal did not always meet the interim
rule requirement. Contracting personnel met the interim rule requirement to justify a
cost-reimbursement type contract for 127 contracts, valued at about $53 billion, of the
161 contracts.         However, contracting personnel did not satisfy the interim rule’s
requirement to justify a cost-reimbursement type contract for 34 contracts, valued
at about $130.5 million, because contracting personnel generally stated they were
not aware of the interim rule. We accepted documentation of prior acquisition planning
and justification to issue a cost-reimbursement contract.        We also interpreted the
interim rule to require justification of contract type regardless of the contract line
item structure. Table 3 shows the total contracts reviewed at each site and the number of
those contracts that did not meet this section of the interim rule.

Table 3. Justified the Use of a Cost-Reimbursement Contract Type
                Site                     Total Contracts        Did Not Meet Interim Rule
 Ft. Huachuca                                  18                           1
 Durham–APG                                    49                           1
 Ft. Belvoir                                   46                           4
 Redstone Arsenal                              48                          28
   Totals                                     161                          34


Redstone Arsenal contracting personnel did not satisfy the interim rule requirement
to justify a cost-reimbursement type contract on 28 contracts, valued at $84 million,
of the 48 contracts. Redstone Arsenal contracting personnel stated they were unaware
of the interim rule requirements.

The office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology
issued “Justification of Contract Type and Incentive Strategies,” memorandum of




                                                                                            DODIG-2013-120 │ 11
Finding



                 January 8, 2012, to promote the use of fixed-price contracts over time and materials
                 and cost-type contracts. Under the memorandum, contracting personnel are required
                 to justify the contract type selected in a memorandum, which shall be approved by the
                 Head of the Contracting Activity for all contracts exceeding $100 million. Only a small
                 portion of Army cost-type contracts will be affected by this memorandum because
                 of the threshold. We concluded that only one contract in our sample was subject to
                 this guidance because of the large threshold amount and the small period of time between
                 the memorandum issuance and the scope of the contracts that we reviewed. Therefore,
                 we were not able to assess the effectiveness of this memorandum. The Assistant Secretary
                 of the Army for Acquisition, Logistics, and Technology should consider updating the
                 January 8, 2012, memorandum to eliminate the dollar threshold for cost-type contracts
                 to align with the interim rule and address the other areas of the interim rule regarding
                 cost-reimbursement contracts.


                 Documentation to Support Efforts to Transition
                 Subsequent Requirements to Firm-Fixed-Price
                 Contracts Varied by Site
                 Contracting personnel at Durham–APG and Ft. Belvoir
                 generally documented the possibility of transitioning                 In the other
                 from a cost-reimbursement type contract to a                       57 cases . . . Army
                 firm-fixed price contract, whereas contracting                   contracting personnel
                                                                                   stated they did not
                 personnel at Ft. Huachuca at Redstone Arsenal
                                                                               document the possibility of
                 did not always meet the interim rule requirement.             transitioning to firm-fixed-
                 Contracting personnel met the interim rule                      price contracts because
                 requirement to show transition to a firm-fixed-                  they were unaware of
                                                                                    the requirements.
                 price contract for 104 contracts, valued at about
                 $52.6 billion, of the 161 contracts. In the other 57 cases,
                 valued at about $645.6 million, contracting personnel generally
                 stated they did not document the possibility of transitioning to firm-fixed-price
                 contracts because they were unaware of the requirement to document the potential of a
                 cost-reimbursement contract to transition to firm-fixed-price. Table 4 shows the total
                 contracts reviewed at each site and the number of those contracts that did not meet this
                 section of the interim rule.




12 │ DODIG-2013-120
                                                                                                      Finding



Table 4. Results of Efforts to Transition Subsequent Contracts to Firm-fixed-price
                Site                   Total Contracts          Did Not Meet Interim Rule
 Ft. Huachuca                                18                             8
 Durham–APG                                  49                             6
 Ft. Belvoir                                 46                             7
 Redstone Arsenal                            48                            36
   Totals                                   161                            57


Redstone Arsenal contracting personnel failed to document the possibility of transition
to a firm-fixed-price contract type from a cost-reimbursement contract in 36 contracts,
valued at about $381.3 million, of the 48 contracts. Redstone Arsenal contracting
personnel stated they were unaware of the interim rule requirement.

Army contracting officials should promote the issuance of more hybrid contracts that
contain multiple line items for the same service or item with different price structure
so that contract type can be selected on each task or delivery order. Army contracting
personnel should also establish better communication channels between the requiring
component and contract monitors to more effectively identify opportunities to transition
away from cost-reimbursement contracts when possible.

The Director, Army Contracting Command Redstone, should establish procedures for
contracting officers to document the possibility of transitioning to firm-fixed-price
contracts in a Determination and Finding for Contract Type or a similar document each
time a cost-reimbursement contract is used. We made this recommendation specific to
Redstone Arsenal because most of the contracts reviewed did not meet the interim rule.


Contracting Officials Ensured Government Resources
Were Available to Monitor Award
Contracting personnel generally met the interim rule requirement to make adequate
Government resources available to monitor a cost-reimbursement contract for
144 contracts, valued at about $53.2 billion, of the 161 contracts. In the 17 cases
of noncompliance, valued at about $29.6 million, contracting personnel generally stated
they were unaware of the interim rule requirement to make Government resources
available to monitor a cost-reimbursement contract. For two of the noncompliant
contracts at Ft. Huachuca, contracting officials appointed CORs after the contract award.
Contracting personnel documented adequate Government resources available to monitor
the contract award in the COR nomination letter, appointment letter, and training




                                                                                            DODIG-2013-120 │ 13
Finding



                 certificates. Table 5 shows the total contracts reviewed at each site and the number of
                 those contracts that did not meet this section of the interim rule.

                 Table 5. Results of Government Resources Available to Monitor Award
                                     Site               Total Contracts          Did Not Meet Interim Rule
                      Ft. Huachuca                            18                            3
                      Durham–APG                              49                            7
                      Ft. Belvoir                             46                            0
                      Redstone Arsenal                        48                            7
                        Totals                               161                            17


                 We are not making a recommendation to address the noncompliance in the areas because
                 of the relatively small number of contracts that did not meet the requirements of the
                 interim rule.


                 Adequate Accounting Systems Varied by Site
                 Contracting personnel at Durham–APG, Ft. Belvoir, and Redstone Arsenal generally
                 verified that an adequate accounting system was in place, whereas Ft. Huachuca did
                 not always meet the interim rule requirement. Contracting personnel met the interim
                 rule requirement for 128 contracts, valued at about $43.5 billion, of the 161 contracts.
                 Of the 33 cases of noncompliance, valued at about $9.8 billion, contracting personnel
                 stated they were unaware of the interim rule requirements or stated they did not
                 receive timely support from DCAA auditors. Contracting personnel at Ft. Huachuca
                 were able to provide one example of DCAA auditors not responding to an audit request.
                 Contracting personnel documented the adequacy of the contractor’s accounting system
                 with the DCAA report included in the contract documentation, or with the reference to a
                 DCAA report in the Price Negotiation Memorandum, or a Defense Contract Management
                 Agency memorandum. Table 6 shows the total contracts reviewed at each site and the
                 number of those contracts that did not meet this section of the interim rule.

                 Table 6. Results of Adequate Accounting System in Place
                                     Site               Total Contracts          Did Not Meet Interim Rule
                      Ft. Huachuca                            18                            8
                      Durham–APG                              49                            10
                      Ft. Belvoir                             46                             3
                      Redstone Arsenal                        48                            12
                        Totals                               161                            33




14 │ DODIG-2013-120
                                                                                                   Finding



Ft. Huachuca contracting personnel failed to verify that an adequate accounting
system was in place before award for 8 contracts, valued at about $28.3 billion, of the
18 contracts. They stated they did not receive timely support from the DCAA auditors.
Ft. Huachuca contracting officials stated that they have already begun to train
personnel to ensure contractors’ accounting systems are adequate before award and
to specifically document how they made this determination in the contract files. The
Director of Contracting, Fort Huachuca Army Contracting Command–Aberdeen Proving
Ground should reemphasize the requirement that contracting officers must determine
that contractors have an adequate accounting system in place before issuing a
cost-reimbursement contract. Redstone Arsenal contracting officials stated they were
unaware of the interim rule for the 12 contracts that did not meet the interim rule.
Additionally, Durham–APG contracting personnel were unable to verify the adequacy
of the contractor’s accounting system for 10 contracts because the order files lacked
contractor accounting system documentation and the base files for those contracts were
not available at the time of our review.


Firm-Fixed-Price Contracts Properly Classified
Contracting officials classified firm-fixed-price contracts correctly and did not avoid
the increased cost-reimbursement contract documentation requirements by purposely
miscoding contracts. We reviewed 160 contracts identified as firm-fixed-price contracts
in Electronic Document Access that were issued by contracting personnel at the four
Army sites. We reviewed some contracts that contained a small cost-reimbursement
portion within the contract, but if the contract was predominately firm-fixed-price, we
considered the award classified correctly. We determined that contracting personnel
properly classified these contracts.


Conclusion
Contracting personnel did not consistently implement the interim rule for
107 contracts, valued at about $10.5 billion, of the 161 contracts, valued at about
$53.3 billion.   Contracting personnel fully met the interim rule on 54 contracts,
valued at about $42.8 billion, of the 161 contracts at the four Army sites. Contracting
personnel continue to issue cost-reimbursement contracts that may inappropriately
increase the Army’s contracting risks because cost-reimbursement contracts provide
less incentive for contractors to control costs. Contracting personnel can do a better job
planning, issuing, and overseeing cost-reimbursement contracts by fully implementing
the FAR revisions.




                                                                                         DODIG-2013-120 │ 15
Finding



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Assistant Secretary of the Army for Acquisition, Logistics,
                 and Technology:

                         a.	Emphasize the importance of the Federal Acquisition Regulation
                            revisions to contracting personnel for the use of cost-reimbursement
                            contracts in guidance and training courses.

                 The Office of the Assistant Secretary of the Army Acquisition Logistics and
                 Technology Comments
                 On the behalf of the Assistant Secretary of the Army for Acquisition, Logistics, and
                 Technology, the Deputy Assistant Secretary of the Army (Procurement) agreed,
                 stating that a Policy Alert will be issued to the Heads of the Contracting Activity and
                 Principal Assistants Responsible for Contracting to emphasize the importance of
                 the June 19, 2013, memorandum, “Implementation Directive for Better Buying
                 Power 2.0–Achieving Greater Efficiency and Productivity in Defense Spending” and
                 to remind contracting personnel to comply with the FAR revisions regarding the
                 use of cost-reimbursement contracts. The Policy Alert will be sent out no later than
                 October 30, 2013.

                         b.	 Update the “Justification of Contract Type and Incentive Strategies,”
                            January 8, 2012 memorandum to eliminate the dollar threshold for
                            cost-type contracts to align with the interim rule and address the other
                            three areas of the interim rule.

                 The Office of the Assistant Secretary of the Army Acquisition Logistics and
                 Technology Comments
                 The Deputy Assistant Secretary of the Army (Procurement) agreed, stating that they
                 will update the “Justification of Contract Type and Incentive Strategies” memorandum
                 to reassess the dollar threshold for cost-type contracts and address the other
                 three components of the FAR interim rule.

                         c.	 Promote the issuance of more hybrid contracts that contain multiple
                            line items for the same service or item with different price structure so
                            that contract type can be selected on each task or delivery order.




16 │ DODIG-2013-120
                                                                                                 Finding



The Office of the Assistant Secretary of the Army Acquisition Logistics and
Technology Comments
The Deputy Assistant Secretary of the Army (Procurement) agreed, stating that a
Policy Alert will be sent no later than October 30, 2013, to contracting personnel to
emphasize the importance of the June 19, 2013, memorandum, “Implementation Directive
for Better Buying Power 2.0–Achieving Greater Efficiency and Productivity in Defense
Spending.” The directive includes guidance on selecting the appropriate contract type
and the use of hybrid contracts.

         d.	
           Establish better communication channels among the requiring
            component, contracting personnel, and contract monitors to more
            effectively identify opportunities to transition away from cost-
            reimbursement contracts when possible.

The Office of the Assistant Secretary of the Army Acquisition Logistics and
Technology Comments
The Deputy Assistant Secretary of the Army (Procurement) agreed, stating that the
Office of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology
issued the June 19, 2013, memorandum, “Implementation Directive for Better Buying
Power 2.0–Achieving Greater Efficiency and Productivity in Defense Spending.” The
memorandum requires each Program Executive Officer and Principal Assistant
Responsible for Contracting to ensure that all personnel are aware and following the
new directive and assigns each Deputy Assistant Secretary of the Army as a responsible
official to oversee the timely execution of the prescribed initiatives.


Our Response
Comments from the Deputy Assistant Secretary of the Army (Procurement) are
responsive and no further comments are required.


Recommendation 2
We recommend that Director, Army Contracting Command–Redstone, in an
effort to meet the increased requirements before issuing a cost-reimbursement
contract, establish procedures for contracting officers to document the possibility
of transitioning to firm-fixed-price contracts in a Determination and Finding
for Contract Type or a similar document each time a cost-reimbursement
contract is used.




                                                                                       DODIG-2013-120 │ 17
Finding



                 Army Contracting Command–Redstone Comments
                 On the behalf of the Director, Army Contracting Command–Redstone, the Executive
                 Deputy to the Commanding General, Army Materiel Command agreed, stating that
                 procedures will be established for contracting officers to document the possibility of
                 transitioning to firm-fixed-price contracts in a Determination and Finding for Contract
                 Type or a similar document. The procedures will be established by September 30, 2013.


                 Our Response
                 Comments from the Executive Deputy to the Commanding General, Army Materiel
                 Command are responsive and no further comments are required.


                 Recommendation 3
                 We recommend that the Director of Contracting, Fort Huachuca Army
                 Contracting Command–Aberdeen Proving Ground reemphasize the requirement
                 that contracting officers should determine that contractors have an adequate
                 accounting system in place before issuing a cost-reimbursement contract.


                 Army Contracting Command–Ft. Huachuca Comments
                 On the behalf of the Director of Contracting, Fort Huachuca Army Contracting
                 Command–Aberdeen Proving Ground, the Executive Deputy to the Commanding
                 General, Army Materiel Command agreed, stating that the contracting office’s branch
                 chiefs have discussed the importance of the requirement to ensure the contractors have
                 an adequate accounting system in place with the contracting officers. Additionally,
                 the contracting office has included a requirement for the contractor’s accounting system
                 to be addressed in the Justification for Contract Type Determination, the Acquisition
                 Plan or Service Acquisition Strategy, where applicable; and the Cost Realism Analysis
                 Evaluation Factor be part of solicitation preparation. Further, the division procurement
                 analyst will review all newly awarded cost-reimbursement contracts to ensure
                 the adequacy of the contractor’s accounting system.       Lastly, the contracting office
                 will implement a training that will include guidance on cost accounting systems in
                 fiscal year 2014.


                 Our Response
                 Comments from the Executive Deputy to the Commanding General, Army Materiel
                 Command are responsive and no further comments are required.




18 │ DODIG-2013-120
                                                                                               Appendixes




Appendix A
Scope and Methodology
We conducted work used as a basis for this report from February 2012 through
August 2012 under DoDIG Project No. D2012-D000CG-0121.000.             In August 2012,
we decided to issue multiple reports as a result of those efforts. From August 2012
through February 2013, we primarily performed work on another report in this series.
In February 2013, we announced project D2013-D000CG-0102.000 specifically for
Army contracts and conducted this performance audit through June 2013. Both projects
were completed in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives.     We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The criteria we applied to this audit included Federal Acquisition Regulation (FAR)
revisions implemented by section 864 of the Duncan Hunter National Defense
Authorization Act for Fiscal Year 2009 and included the Interim Rule 76
Federal Register 14542, “Proper Use and Management of Cost-Reimbursement Contracts.”
We also reviewed Defense Federal Acquisition Regulation Supplement 242.7502, “Policy,”
and the Defense Federal Acquisition Regulation Supplement Clause 252.242-7005,
“Contractor Business Systems,” as well as the Small Business Innovation Research (SBIR)
policy directive. The FAR sections updated by the interim rule include FAR 1.602-2,
“Responsibilities;” FAR 1.604, “Contracting Officers Representative;” FAR 2.101,
“Definitions;” FAR 7.103, “Agency-Head Responsibilities;” FAR 7.104,               “General
Procedures;” FAR 7.105, “Contents of Written Acquisition Plans;” FAR 16.103,
“Negotiating Contract Types;” FAR 16.104, “Factors in Selecting Contract Types;”
FAR 16.301-2, “Application;” FAR 16.301-3, “Limitations;” FAR 42.301, “Contract
Administration Functions;” and FAR subpart 50.1, “Extraordinary Contractual Actions.”

We plan to issue separate reports for each Service, one report to include the Missile
Defense Agency and the Defense Microelectronics Activity, as well as a summary report.
This is the second report in the planned series of reports and includes contracts issued
by the Department of the Army at the four sites visited. This audit was required by the
FY 2009 National Defense Authorization Act, section 864, “Regulation on the Use of
Cost-Reimbursement Contracts.” Our objective was to determine whether DoD has
complied with interim FAR revisions on the use of cost-reimbursement contracts.




                                                                                          DODIG-2013-120 │ 19
Appendixes



                 To determine compliance with the interim rule, our methodology included reviewing
                 basic contract and task and delivery order files that varied slightly from the specific
                 interim rule requirements.     In cases where the interim rule required areas to be
                 documented in the Acquisition Plan, we expanded our review to the entire contract
                 file because, in many cases, the Acquisition Plan was written and approved before the
                 interim rule was issued. Additionally, we focused our audit to assess how contracting
                 personnel determined that adequate resources were available to monitor the award
                 by determining whether a contracting officer’s representative (COR) or similar person
                 was assigned to the contract at issuance. We did not determine whether the person
                 assigned had an appropriate workload or was properly geographically located to monitor
                 the award. We identified the assignment of a COR on the contracts rather than testing
                 the adequacy of the COR assigned to the contract reviewed. Additionally, we determined
                 whether the contracting officer documented that the contractor’s accounting system
                 was adequate at contract award and not during the entire period of contract performance
                 as required by the interim rule.


                 Universe and Sample Information
                 We used Federal Procurement Data System-Next Generation to identify a universe
                 of cost-reimbursement, labor hour, and time and materials contracts issued by the
                 Army from March 17, 2011, through February 29, 2012. We included task and delivery
                 orders issued after March 17, 2011, in our universe even if the basic contract was
                 issued before the interim ruling. We limited the review to contracts valued at $150,000
                 or above. We removed contract modifications from our universe because they are not
                 new contract awards. We eliminated Army contracts that were issued on General Service
                 Administration contracts. We queried all Army cost-reimbursement contracts from
                 March 17, 2011, through February 29, 2012. Our universe consisted of 2,925 contract
                 actions, on 1,273 contracts, valued at about $75 billion; this includes the value of
                 all potential options and any firm-fixed-price portions of the contracts. We visited
                 four Army sites and reviewed 161 nonstatistically selected contracts with cost-
                 reimbursement portions valued at about $53.3 billion. We selected the four Army sites
                 based on a combination of cost-reimbursement award amounts and number of cost-
                 reimbursement contracts and task or delivery orders issued. The Army sites visited were
                 Ft. Huachuca Army Contracting Command–APG (referred throughout report as
                 Ft. Huachuca), Sierra Vista, Arizona; Durham–APG (Durham–APG), North Carolina;
                 Intelligence and Security Command–Ft. Belvoir (Ft. Belvoir), Ft. Belvoir, Virginia; and
                 Army Contracting Command–Redstone Arsenal (Redstone Arsenal), Huntsville, Alabama.




20 │ DODIG-2013-120
                                                                                             Appendixes



Our nonstatistical sample consisted of 50 contracts from each of the Army sites, with
the exception of Fort Huachuca, where we reviewed all the 18 available contracts. We
reviewed as many of the contracts that were readily available at each site. We removed
7 contracts of 168 contracts because they were misclassified—that is, were actually
firm-fixed-price contracts, were not located on the site, were not reviewed because of
time constraints during the site visit, or were removed for other reasons.


Review of Documentation and Interviews
We reviewed documentation maintained by the Army’s contracting offices.              The
documents reviewed included Acquisition Plans, Business Clearance Memorandums,
Pre/Post Price Negotiation Memorandums, Determination and Finding for Contract
Type, COR designation letters, COR training certificates, Defense Contract Audit Agency
audit reports, Defense Contract Management Agency reports, and other documentation
included in the contract file to comply with the interim rule. We reviewed contract
award documentation, including basic contract files from FY 2007 through FY 2012.
We interviewed Army personnel responsible for awarding contracts as well as quality
assurance personnel, such as CORs, who were responsible for monitoring the contracts.

At each Army site visited, we determined whether Army contracting personnel
implemented the interim rule by documenting:

         •	 the approval for the cost-reimbursement contract was at least one level above
              the contracting officer.

         •	 the justification for the use of cost-reimbursement, time and materials, or
              labor hour contracts.

         •	 how the requirements under contract could transition to firm-fixed-price in
              the future.

         •	 that Government resources were available to monitor the cost-reimbursement
              contract.

         •	 whether the contractor had an adequate accounting system in place at
              contract award.

We tested Army contracts to determine whether Army contracting personnel were
misclassifying cost-reimbursement contracts as firm-fixed-price contracts. We used
Federal Procurement Data System–Next Generation and Electronic Document Access to
review the firm-fixed-price contracts. We reviewed between 40 and 50 firm-fixed-price
contracts at each site to determine whether contracts contained cost-reimbursement
line items.


                                                                                        DODIG-2013-120 │ 21
Appendixes



                 Use of Computer-Processed Data
                 We did not rely on computer-processed data for this audit.


                 Use of Technical Assistance
                 The DoD Office of Inspector General Quantitative Methods Division (QMD) assisted
                 with the audit. We worked with QMD during our planning phase to determine the
                 number of sites per Service to visit and the number of contracts that should be reviewed
                 at each site. QMD suggested that we should visit 3 to 5 sites per Service and have a
                 nonstatistical sample of at least 30 contracts per site. We decided to review all contracts
                 at sites with fewer than 30 contracts.


                 Prior Coverage
                 During the last 5 years, the Government Accountability Office, the Department of
                 Homeland Security Inspector General, the General Services Administration Inspector
                 General, and the National Aeronautics and Space Administration Inspector General
                 have issued 5 reports discussing oversight of the use of cost-reimbursement contracts.
                 Unrestricted Government Accountability Office reports can be accessed over the
                 Internet at www.gao.gov.      Unrestricted Department of Defense Inspector General
                 reports can be accessed at www.dodig.mil. Department of Homeland Defense
                 Inspector General reports can be accessed at www.oig.dhs.gov. Unrestricted General
                 Services Administration Inspector General reports can be accessed at www.gsaig.gov.
                 Unrestricted National Aeronautical and Space Administration Inspector General
                 reports can be accessed at www.oig.nasa.gov.


                 Government Accountability Office
                 Report No. GAO-09-921, “Contract Management: Extent of Federal Spending Under
                 Cost-Reimbursement Contracts Unclear and Key Controls Not Always Used,”
                 September 30, 2009


                 Department of Defense Inspector General
                 Report No. DODIG-2013-059, “Air Force Needs Better Processes to Appropriately Justify
                 and Manage Cost-Reimbursable Contracts,” March 21, 2013


                 Department of Homeland Security Inspector General
                 Report No. OIG-12-133, “Department of Homeland Security Compliance with the Federal
                 Acquisition Regulation Revisions on Proper Use and management of Cost-Reimbursement
                 Contracts,” September 28, 2012



22 │ DODIG-2013-120
                                                                                    Appendixes



General Services Administration Inspector General
Report No. A120052/Q/A/P12004, “Audit of GSA’s Cost-Reimbursement Contracts,”
March 30, 2012


National Aeronautics and Space Administration Inspector General
Report No. IG-12-014, “Final Memorandum on NASA’s Compliance with Provisions
of the Duncan Hunter National Defense Authorization Act 2009–Management of Cost-
Reimbursement Contracts,” March 14, 2012




                                                                               DODIG-2013-120 │ 23
Appendixes




                                                          Appendix B
                                                          Federal Acquisition Circular 2005-50 Issued
                                                          March 16, 2011

                                                                             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                        14543

                                                            established new requirements for           order to make this determination. The      Item X—Technical Amendments
                                                            agencies subject to Title 10, United       rule further details, when this               Editorial changes are made at FAR
                                                            States Code. As a matter of policy, this   determination cannot be made, the          19.201, 52.212–3, and 52.212–5.
                                                            provision of law was applied to            information which may be requested to
                                                            contracts awarded by all executive         determine price reasonableness.               Dated: March 4, 2011.
                                                            agencies. The rule requires that market                                               Millisa Gary,
                                                                                                       Item VII—Trade Agreements
                                                            research must be conducted before an                                                  Acting Director, Office of Governmentwide
                                                                                                       Thresholds (FAR Case 2009–040)             Acquisition Policy.
                                                            agency places a task or delivery order in
                                                            excess of the simplified acquisition          This final rule adopts, without            Federal Acquisition Circular (FAC) 2005–
                                                            threshold under an indefinite-delivery     change, an interim rule that amended       50 is issued under the authority of the
                                                            indefinite-quantity contract. In addition, the FAR to adjust the thresholds for       Secretary of Defense, the Administrator of
                                                            a prime contractor with a contract in      application of the World Trade             General Services, and the Administrator for
                                                            excess of $5 million for the procurement Organization Government Procurement          the National Aeronautics and Space
                                                                                                       Agreement and the Free Trade               Administration.
                                                            of items other than commercial items is                                                  Unless otherwise specified, all Federal
                                                            required to conduct market research        Agreements as determined by the
                                                                                                                                                  Acquisition Regulation (FAR) and other
                                                            before making purchases that exceed the United States Trade Representative,           directive material contained in FAC 2005–50
                                                            simplified acquisition threshold. Among according to a pre-determined formula         is effective March 16, 2011, except for Item
                                                            other changes, the final rule also deletes under the agreements.                      IV which is effective April 15, 2011, and Item
                                                            the language added to FAR 52.244–6         Item VIII—Disclosure and Consistency       II which is effective May 16, 2011.
                                                            (Alternate I) and relocates it to a newThisofsection     intentionally
                                                                                                          Cost Accounting Practices for
                                                                                                                                         left  blank Dated: March 4, 2011.
                                                            FAR clause 52.210–1, Market Research.      Contracts Awarded to Foreign Concerns Amy G. Williams,
                                                            Item V—Socioeconomic Program Parity (FAR Case 2009–025)                               Acting Deputy Director, Defense Procurement
                                                            (FAR Case 2011–004) (Interim)                 This final rule adopts, without         and Acquisition Policy (Defense Acquisition
                                                                                                       change, the interim rule that amended      Regulations System).
                                                               This interim rule amends the FAR to
                                                            implement section 1347 of the ‘‘Small      the FAR to revise FAR 30.201–4(c),            Dated: March 4, 2011.
                                                            Business Jobs Act of 2010’’ (Pub. L. 111– 30.201–4(d)(1), 52.230–4, and 52.230–6      Joseph A. Neurauter,
                                                            240) and the Small Business                to maintain consistency between FAR        Deputy Associate Administrator and Senior
                                                            Administration regulations governing       and Cost Accounting Standards (CAS)        Procurement Executive, Office of Acquisition
                                                            specific contracting and business          regarding the administration of the Cost Policy, U.S. General Services Administration.
                                                            assistance programs. Section 1347          Accounting Standard Board’s (CASB)            Dated: February 28, 2011.
                                                            changed the word ‘‘shall’’ to ‘‘may’’ at   rules, regulations and standards. This     Sheryl J. Goddard,
                                                            section 31(b)(2)(B) of the Small Business revision was necessitated by the CASB       Acting Assistant Administrator for
                                                            Act (15 U.S.C. 657a(b)(2)(B), thereby      publishing a final rule in the Federal     Procurement National Aeronautics and Space
                                                            permitting a contracting officer to use    Register on March 26, 2008 (73 FR          Administration.
                                                            discretion when determining whether        15939)  which   implemented   the revised  [FR Doc. 2011–5551 Filed 3–15–11; 8:45 am]
                                                            an acquisition will be restricted to a     clause, Disclosure and Consistency of      BILLING CODE 6820–EP–P
                                                            small business participating in the 8(a)   Cost Accounting Practices—Foreign
                                                            Business Development Program, the          Concerns, in CAS-covered contracts and
                                                            Historically Underutilized Business        subcontracts awarded to foreign            DEPARTMENT OF DEFENSE
                                                            Zone Program, or the Service-Disabled      concerns.
                                                            Veteran-Owned Small Business                                                          GENERAL SERVICES
                                                                                                       Item IX—Compensation for Personal          ADMINISTRATION
                                                            Program.                                   Services (FAR Case 2009–026)
                                                            Item VI—Use of Commercial Services                         This final rule adopts, without                    NATIONAL AERONAUTICS AND
                                                            Item Authority (FAR Case 2008–034)                      change, the interim rule that amended                 SPACE ADMINISTRATION
                                                               This final rule adopts, without                      the FAR to align the existing FAR
                                                            change, an interim rule that                            31.205–6(q)(2)(i) through (vi) with the               48 CFR Parts 1, 2, 7, 16, 32, 42, and 50
                                                            implemented section 868 of the Duncan                   changes made in Cost Accounting                       [FAC 2005–50; FAR Case 2008–030; Item
                                                            Hunter National Defense Authorization                   Standards (CAS) Board standards 412                   I; Docket 2011–0082, Sequence 1]
                                                            Act for Fiscal Year 2009 (Pub. L. 110–                  ‘‘Cost Accounting Standard for
                                                            417). Section 868 provides that the FAR                 composition and measurement of                        RIN 9000–AL78
                                                            shall be amended with respect to the                    pension cost,’’ and 415 ‘‘Accounting for
                                                                                                                                                                          Federal Acquisition Regulation; Proper
                                                            procurement of commercial services                      the cost of deferred compensation.’’
                                                                                                                                                                          Use and Management of Cost-
                                                            that are not offered and sold                           Formerly, the applicable CAS standard
                                                                                                                                                                          Reimbursement Contracts
                                                            competitively in substantial quantities                 for measuring, assigning, and allocating
                                                            in the commercial marketplace, but are                  the costs of Employee Stock Ownership                 AGENCIES:  Department of Defense (DoD),
                                                            of a type offered and sold competitively                Plans (ESOPs) depended on whether the                 General Services Administration (GSA),
                                                            in substantial quantities in the                        ESOP met the definition of a pension                  and National Aeronautics and Space
                                                            commercial marketplace. Such services                   plan at FAR 31.001. Costs for ESOPs                   Administration (NASA).
                                                            may be considered commercial items                      meeting the definition of a pension plan              ACTION: Interim rule with request for
                                                            only if the contracting officer has                     at FAR 31.001 were covered by CAS                     comments.
                                                            determined in writing that the offeror                  412, while the costs for ESOPs not
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                            has submitted sufficient information to                 meeting the definition of a pension plan              SUMMARY:   DoD, GSA, and NASA are
                                                            evaluate, through price analysis, the                   at FAR 31.001 were covered by CAS                     issuing an interim rule amending the
                                                            reasonableness of the price for these                   415. Now, regardless of whether an                    Federal Acquisition Regulation (FAR) to
                                                            services.                                               ESOP meets the definitions of a pension               implement section 864 of the Duncan
                                                               The rule details the information the                 plan at FAR 31.001, all costs of ESOPs                Hunter National Defense Authorization
                                                            contracting officer may consider in                     are covered by CAS 415.                               Act for Fiscal Year 2009. This law aligns


                                                       VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2



24 │ DODIG-2013-120
                                                                                                                                                                                                                  Appendixes



                                           Federal Acquisition Circular 2005-50 Issued
                                           March 16, 2011 (cont’d)

                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                               14543

                                              established new requirements for                        order to make this determination. The                 Item X—Technical Amendments
                                              agencies subject to Title 10, United                    rule further details, when this                         Editorial changes are made at FAR
                                              States Code. As a matter of policy, this                determination cannot be made, the                     19.201, 52.212–3, and 52.212–5.
                                              provision of law was applied to                         information which may be requested to
                                              contracts awarded by all executive                      determine price reasonableness.                          Dated: March 4, 2011.
                                              agencies. The rule requires that market                                                                       Millisa Gary,
                                                                                                      Item VII—Trade Agreements
                                              research must be conducted before an                                                                          Acting Director, Office of Governmentwide
                                                                                                      Thresholds (FAR Case 2009–040)                        Acquisition Policy.
                                              agency places a task or delivery order in
                                              excess of the simplified acquisition                       This final rule adopts, without                       Federal Acquisition Circular (FAC) 2005–
                                              threshold under an indefinite-delivery                  change, an interim rule that amended                  50 is issued under the authority of the
                                              indefinite-quantity contract. In addition,              the FAR to adjust the thresholds for                  Secretary of Defense, the Administrator of
                                              a prime contractor with a contract in                   application of the World Trade                        General Services, and the Administrator for
                                              excess of $5 million for the procurement                Organization Government Procurement                   the National Aeronautics and Space
                                                                                                      Agreement and the Free Trade                          Administration.
                                              of items other than commercial items is                                                                          Unless otherwise specified, all Federal
                                              required to conduct market research                     Agreements as determined by the
                                                                                                                                                            Acquisition Regulation (FAR) and other
                                              before making purchases that exceed the                 United States Trade Representative,                   directive material contained in FAC 2005–50
                                              simplified acquisition threshold. Among                 according to a pre-determined formula                 is effective March 16, 2011, except for Item
                                              other changes, the final rule also deletes              under the agreements.                                 IV which is effective April 15, 2011, and Item
                                              the language added to FAR 52.244–6                      Item VIII—Disclosure and Consistency                  II which is effective May 16, 2011.
                                              (Alternate I) and relocates it to a new                 of Cost Accounting Practices for                        Dated: March 4, 2011.
                                              FAR clause 52.210–1, Market Research.                   Contracts Awarded to Foreign Concerns                 Amy G. Williams,
                                              Item V—Socioeconomic Program Parity                     (FAR Case 2009–025)                                   Acting Deputy Director, Defense Procurement
                                              (FAR Case 2011–004) (Interim)                              This final rule adopts, without                    and Acquisition Policy (Defense Acquisition
                                                                                                      change, the interim rule that amended                 Regulations System).
                                                 This interim rule amends the FAR to
                                              implement section 1347 of the ‘‘Small                   the FAR to revise FAR 30.201–4(c),                      Dated: March 4, 2011.
                                              Business Jobs Act of 2010’’ (Pub. L. 111–               30.201–4(d)(1), 52.230–4, and 52.230–6                Joseph A. Neurauter,
                                              240) and the Small Business                             to maintain consistency between FAR                   Deputy Associate Administrator and Senior
                                              Administration regulations governing                    and Cost Accounting Standards (CAS)                   Procurement Executive, Office of Acquisition
                                              specific contracting and business                       regarding the administration of the Cost              Policy, U.S. General Services Administration.
                                              assistance programs. Section 1347                       Accounting Standard Board’s (CASB)                      Dated: February 28, 2011.
                                              changed the word ‘‘shall’’ to ‘‘may’’ at                rules, regulations and standards. This                Sheryl J. Goddard,
                                              section 31(b)(2)(B) of the Small Business               revision was necessitated by the CASB                 Acting Assistant Administrator for
                                              Act (15 U.S.C. 657a(b)(2)(B), thereby                   publishing a final rule in the Federal                Procurement National Aeronautics and Space
                                              permitting a contracting officer to use                 Register on March 26, 2008 (73 FR                     Administration.
                                              discretion when determining whether                     15939) which implemented the revised                  [FR Doc. 2011–5551 Filed 3–15–11; 8:45 am]
                                              an acquisition will be restricted to a                  clause, Disclosure and Consistency of                 BILLING CODE 6820–EP–P
                                              small business participating in the 8(a)                Cost Accounting Practices—Foreign
                                              Business Development Program, the                       Concerns, in CAS-covered contracts and
                                              Historically Underutilized Business                     subcontracts awarded to foreign                       DEPARTMENT OF DEFENSE
                                              Zone Program, or the Service-Disabled                   concerns.
                                              Veteran-Owned Small Business                                                                                  GENERAL SERVICES
                                                                                                      Item IX—Compensation for Personal                     ADMINISTRATION
                                              Program.                                                Services (FAR Case 2009–026)
                                              Item VI—Use of Commercial Services                         This final rule adopts, without                    NATIONAL AERONAUTICS AND
                                              Item Authority (FAR Case 2008–034)                      change, the interim rule that amended                 SPACE ADMINISTRATION
                                                 This final rule adopts, without                      the FAR to align the existing FAR
                                              change, an interim rule that                            31.205–6(q)(2)(i) through (vi) with the               48 CFR Parts 1, 2, 7, 16, 32, 42, and 50
                                              implemented section 868 of the Duncan                   changes made in Cost Accounting                       [FAC 2005–50; FAR Case 2008–030; Item
                                              Hunter National Defense Authorization                   Standards (CAS) Board standards 412                   I; Docket 2011–0082, Sequence 1]
                                              Act for Fiscal Year 2009 (Pub. L. 110–                  ‘‘Cost Accounting Standard for
                                              417). Section 868 provides that the FAR                 composition and measurement of                        RIN 9000–AL78
                                              shall be amended with respect to the                    pension cost,’’ and 415 ‘‘Accounting for
                                                                                                                                                            Federal Acquisition Regulation; Proper
                                              procurement of commercial services                      the cost of deferred compensation.’’
                                                                                                                                                            Use and Management of Cost-
                                              that are not offered and sold                           Formerly, the applicable CAS standard
                                                                                                                                                            Reimbursement Contracts
                                              competitively in substantial quantities                 for measuring, assigning, and allocating
                                              in the commercial marketplace, but are                  the costs of Employee Stock Ownership                 AGENCIES:  Department of Defense (DoD),
                                              of a type offered and sold competitively                Plans (ESOPs) depended on whether the                 General Services Administration (GSA),
                                              in substantial quantities in the                        ESOP met the definition of a pension                  and National Aeronautics and Space
                                              commercial marketplace. Such services                   plan at FAR 31.001. Costs for ESOPs                   Administration (NASA).
                                              may be considered commercial items                      meeting the definition of a pension plan              ACTION: Interim rule with request for
                                              only if the contracting officer has                     at FAR 31.001 were covered by CAS                     comments.
                                              determined in writing that the offeror                  412, while the costs for ESOPs not
jlentini on DSKJ8SOYB1PROD with RULES2




                                              has submitted sufficient information to                 meeting the definition of a pension plan              SUMMARY:   DoD, GSA, and NASA are
                                              evaluate, through price analysis, the                   at FAR 31.001 were covered by CAS                     issuing an interim rule amending the
                                              reasonableness of the price for these                   415. Now, regardless of whether an                    Federal Acquisition Regulation (FAR) to
                                              services.                                               ESOP meets the definitions of a pension               implement section 864 of the Duncan
                                                 The rule details the information the                 plan at FAR 31.001, all costs of ESOPs                Hunter National Defense Authorization
                                              contracting officer may consider in                     are covered by CAS 415.                               Act for Fiscal Year 2009. This law aligns


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                             DODIG-2013-120 │ 25
Appendixes



                                                         Federal Acquisition Circular 2005-50 Issued
                                                         March 16, 2011 (cont’d)

                                                            14544            Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                                            with the Presidential Memorandum on                        Section 864 requires the FAR to be                 contract type in accordance with FAR
                                                            Government Contracting, issued on                       revised to address the use and                        subpart 16.1; ensure that the statement
                                                            March 4, 2009, which directed agencies                  management of cost-reimbursement                      of work is closely aligned with the
                                                            to save $40 billion in contracting                      contracts and identifies the following                performance outcomes and cost
                                                            annually by Fiscal Year (FY) 2011 and                   three areas that the Defense Acquisition              estimates; and obtain an approval and
                                                            to reduce the use of high-risk contracts.               Regulation Council and the Civilian                   signature from the appropriate
                                                            This rule provides regulatory guidance                  Agency Acquisition Council (Councils)                 acquisition official at least one level
                                                            on the proper use and management of                     should consider in amending the FAR—                  above the contracting officer. FAR
                                                            other than firm-fixed-price contracts                      (a) Circumstances when cost-                       7.105(b)(5)(iv) was added to discuss the
                                                            (e.g., cost-reimbursement, time-and-                    reimbursement contracts are                           strategy to transition from cost-
                                                            material, and labor-hour).                              appropriate;                                          reimbursement contracts to firm-fixed-
                                                            DATES: Effective Date: March 16, 2011.                     (b) Acquisition plan findings to                   price contracts. Although FAR
                                                               Comment Date: Interested parties                     support the selection of a cost-                      7.105(b)(5), Acquisition considerations,
                                                            should submit written comments to the                   reimbursement contract; and                           requires the acquisition plans to include
                                                            Regulatory Secretariat on or before May                    (c) Acquisition resources necessary to             a discussion of contract type selection
                                                            16, 2011 to be considered in the                        award and manage a cost-                              and rationale, the Councils believe that
                                                            formulation of a final rule.                            reimbursement contract.                               a greater emphasis on the use of cost-
                                                                                                                       1. Guidance on Cost-reimbursement                  reimbursement contracts should be
                                                            ADDRESSES: Submit comments
                                                                                                                    contracts. As required, the Councils                  added and included a new paragraph at
                                                            identified by FAC 2005–50, FAR Case                     included additional coverage at FAR
                                                            2008–030, by any of the following                                                                             FAR 7.105(b)(3), Contract type selection.
                                                                                                                    subpart 16.1, Selecting Contract Types,               Additionally, FAR 16.301–3(a) has been
                                                            methods:                                                and at subpart 16.3, Cost-
                                                               • Regulations.gov: http://                                                                                 amended and renumbered.
                                                                                                                    Reimbursement Contracts, to provide                      3. Acquisition workforce resources.
                                                            www.regulations.gov. Submit comments
                                                                                                                    further guidance as to when, and under                The Councils recognize that assigning
                                                            via the Federal eRulemaking portal by
                                                                                                                    what circumstances, cost-                             adequate and proper resources to
                                                            inputting ‘‘FAR Case 2008–030’’ under
                                                                                                                    reimbursement contracts are                           support the solicitation, award, and
                                                            the heading ‘‘Enter Keyword or ID’’ and
                                                                                                                    appropriate. Therefore, this rule makes               administration of other than firm-fixed-
                                                            selecting ‘‘Search.’’ Select the link
                                                                                                                    the following changes:                                price contracts (cost-reimbursement,
                                                            ‘‘Submit a Comment’’ that corresponds                      • FAR 16.103, Negotiating contract                 time-and-material, and labor-hour)
                                                            with ‘‘FAR Case 2008–030.’’ Follow the                  type, is amended to revise paragraph (d)              contract is challenging. There is also
                                                            instructions provided at the ‘‘Submit a                 to reflect additional documentation                   great concern that a lack of involvement
                                                            Comment’’ screen. Please include your                   when other than a firm-fixed-price                    in contract oversight by program offices
                                                            name, company name (if any), and ‘‘FAR                  contract type is selected.                            is primarily present in other than firm-
                                                            Case 2008–030’’ on your attached                           • FAR 16.104, Factors in selecting                 fixed-price contracts. Therefore, from
                                                            document.                                               contract types, is amended to add a new               the outset, contracting officers should be
                                                               • Fax: (202) 501–4067.                               paragraph (e) to provide guidance to the              assured, to the greatest extent
                                                               • Mail: General Services                             contracting officer to consider                       practicable, that the right resources in
                                                            Administration, Regulatory Secretariat                  combining contract types if the entire                number, kind, and availability be
                                                            (MVCB), ATTN: Hada Flowers, 1275                        contract cannot be firm fixed-price.                  assigned to support other than firm-
                                                            First Street, NE., 7th Floor, Washington,                  • FAR 16.301–2, Application, is                    fixed-price contracts. The Councils
                                                            DC 20417.                                               amended to provide guidance to the                    consider that greater accountability for
                                                               Instructions: Please submit comments                 contracting officer as to the                         the management and oversight of all
                                                            only and cite FAC 2005–50, FAR Case                     circumstances in which to use cost-                   contracts, especially other than firm-
                                                            2008–030, in all correspondence related                 reimbursement contracts as well as                    fixed-price contracts, can be gained and
                                                            to this case. All comments received will                outlining the rationale for                           improved by requiring that properly
                                                            be posted without change to http://                     documentation for selecting this                      trained CORs or COTRs (see FAR
                                                            www.regulations.gov, including any                      contract type.                                        2.101(b)(2), Definitions) be appointed
                                                            personal and/or business confidential                      • FAR 16.301–3, Limitations, is                    before award. Therefore, FAR 7.104,
                                                            information provided.                                   amended to (1) provide additional                     General Procedures, and FAR 16.301–
                                                            FOR FURTHER INFORMATION CONTACT: For                    guidance to the contracting officer as to             3(a)(4)(i) are amended to reflect that
                                                            clarification of content, contact Lori                  when a cost-reimbursement contract                    prior to award of a contract, especially
                                                            Sakalos, Procurement Analyst, at (202)                  may be used, (2) ensure that all factors              on other than firm-fixed price contracts,
                                                            208–0498. For information pertaining to                 have been considered per FAR 16.104,                  at least one COR or COTR qualified in
                                                            status or publication schedules, contact                and (3) ensure that adequate                          accordance with FAR 1.602–2 is
                                                            the Regulatory Secretariat at (202) 501–                Government resources are available to                 designated. FAR 1.602–2,
                                                            4755. Please cite FAC 2005–50, FAR                      award and manage this type of contract.               Responsibilities, is amended to add a
                                                            Case 2008–030.                                             • FAR 7.104(e) also requires the                   new paragraph (d) outlining the
                                                            SUPPLEMENTARY INFORMATION:                              designation of a properly trained                     requirement for the contracting officer
                                                                                                                    contracting officer’s representative                  to designate and authorize, in writing, a
                                                            I. Background                                           (COR) (or contracting officer’s technical             COR on contracts and orders, as
                                                               This case implements section 864 of                  representative (COTR)) prior to award of              appropriate. Additionally, a new section
                                                            the Duncan Hunter National Defense                      the contract or order.                                was added at FAR 1.604, Contracting
                                                            Authorization Act for Fiscal Year 2009                     2. Identification of acquisition plan              officer’s representative, outlining the
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                            (Pub. L. 110–417), enacted October 14,                  findings. FAR 7.103, Agency-head                      COR’s duties.
                                                            2008. This law aligns with the                          responsibilities, is amended and                         4. Contract administration functions.
                                                            President’s goal of reducing high-risk                  renumbered to add new paragraphs                      A new paragraph was added at FAR
                                                            contracting as denoted in the March 4,                  7.103(d), 7.103(f), and 7.103(j) to ensure            42.302(a)(12) to require that the
                                                            2009, Presidential Memorandum on                        that acquisition planners document the                contracting officer determine the
                                                            Government Contracting.                                 file to support the selection of the                  continuing adequacy of the contractor’s


                                                       VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




26 │ DODIG-2013-120
                                                                                                                                                                                                              Appendixes



                                           Federal Acquisition Circular 2005-50 Issued
                                           March 16, 2011 (cont’d)

                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                           14545

                                              accounting system during the entire                     compelling reasons exist to promulgate                  (3) Must be qualified by training and
                                              period of contract performance. Also,                   this interim rule without prior                       experience commensurate with the
                                              paragraph (a)(12) was added to the list                 opportunity for public comment. This                  responsibilities to be delegated in
                                              of functions at FAR 42.302(a) that                      action is necessary because section 864               accordance with department/agency
                                              cannot be retained and that must be                     of the Duncan Hunter National Defense                 guidelines;
                                              delegated by the contracting officer                    Authorization Act for Fiscal Year 2009,                 (4) May not be delegated
                                              when delegating contract administration                 enacted October 14, 2008, directs that it             responsibility to perform functions that
                                              functions to a contract administration                  must be implemented within 270 days                   have been delegated under 42.202 to a
                                              office in accordance with FAR                           from enactment. This rule is also urgent              contract administration office, but may
                                              42.202(a).                                              because this law requires the Inspector               be assigned some duties at 42.302 by the
                                                                                                      General to conduct a compliance review                contracting officer;
                                              II. Executive Order 12866
                                                                                                      for each executive agency, one year after               (5) Has no authority to make any
                                                 This is a significant regulatory action              the regulations have been promulgated,                commitments or changes that affect
                                              and, therefore, was subject to review                   on the use of cost-reimbursement                      price, quality, quantity, delivery, or
                                              under Section 6(b) of Executive Order                   contracts and include the results of their            other terms and conditions of the
                                              12866, Regulatory Planning and Review,                  findings in the IG’s next semiannual                  contract; and
                                              dated September 30, 1993. This rule is                  report. However, pursuant to 41 U.S.C.                  (6) Must be designated in writing,
                                              not a major rule under 5 U.S.C. 804.                    1707 and FAR 1.501–3(b), DoD, GSA,                    with copies furnished to the contractor
                                              III. Regulatory Flexibility Act                         and NASA will consider public                         and the contract administration office—
                                                                                                      comments received in response to this                   (i) Specifying the extent of the COR’s
                                                 DoD, GSA, and NASA do not expect                     interim rule in the formation of the final            authority to act on behalf of the
                                              this interim rule to have a significant                 rule.                                                 contracting officer;
                                              economic impact on a substantial                                                                                (ii) Identifying the limitations on the
                                              number of small entities within the                     List of Subjects in 48 CFR Parts 1, 2, 7,
                                                                                                                                                            COR’s authority;
                                              meaning of the Regulatory Flexibility                   16, 32, 42, and 50                                      (iii) Specifying the period covered by
                                              Act, 5 U.S.C. 601, et seq., because                         Government procurement.                           the designation;
                                              section 864 affects only internal                                                                               (iv) Stating the authority is not
                                                                                                       Dated: March 4, 2011.
                                              Government operations and requires the                                                                        redelegable; and
                                              Government to establish internal                        Millisa Gary,
                                                                                                                                                              (v) Stating that the COR may be
                                              guidance on the proper use and                          Acting Director, Office of Governmentwide
                                                                                                      Acquisition Policy Division.                          personally liable for unauthorized acts.
                                              management of all contracts especially
                                                                                                                                                            ■ 3. Amend section 1.603 by revising
                                              other than firm-fixed-price contracts                     Therefore, DoD, GSA, and NASA
                                                                                                      amend 48 CFR parts 1, 2, 7, 16, 32, 42,               the section heading to read as follows:
                                              (e.g., cost-reimbursement, time-and-
                                              material, and labor-hour) and does not                  and 50 as set forth below:                            1.603 Selection, appointment, and
                                              impose any additional requirements on                   ■ 1. The authority citation for 48 CFR                termination of appointment for contracting
                                              small businesses.                                       parts 1, 2, 7, 16, 32, 42, and 50                     officers.
                                                 Therefore, an Initial Regulatory                     continues to read as follows:                         *     *    *     *    *
                                              Flexibility Analysis has not been                         Authority: 40 U.S.C. 121(c); 10 U.S.C.              ■ 4. Add section 1.604 to read as
                                              performed. DoD, GSA, and NASA invite                    chapter 137; and 42 U.S.C. 2473(c).                   follows:
                                              comments from small business entities
                                              and other interested parties on the                     PART 1—FEDERAL ACQUISITION                            1.604 Contracting Officer’s Representative
                                              expected impact of this rule on small                   REGULATIONS SYSTEM                                    (COR).
                                              entities.                                                                                                        A contracting officer’s representative
                                                 DoD, GSA, and NASA will also                         ■ 2. Amend section 1.602–2 by adding                  (COR) assists in the technical
                                              consider comments from small entities                   paragraph (d) to read as follows:                     monitoring or administration of a
                                              concerning the existing regulations in                                                                        contract (see 1.602–2(d)). The COR shall
                                                                                                      1.602–2    Responsibilities.
                                              subparts affected by the rule in                                                                              maintain a file for each assigned
                                              accordance with 5 U.S.C. 610. Interested                *      *     *    *      *                            contract. The file must include, at a
                                              parties must submit such comments                          (d) Designate and authorize, in                    minimum—
                                              separately and should cite 5 U.S.C. 610                 writing, a contracting officer’s                         (a) A copy of the contracting officer’s
                                              (FAC 2005–50, FAR Case 2008–030) in                     representative (COR) on all contracts                 letter of designation and other
                                              correspondence.                                         and orders other than those that are                  documents describing the COR’s duties
                                                                                                      firm-fixed price, and for firm-fixed-price            and responsibilities;
                                              IV. Paperwork Reduction Act                             contracts and orders as appropriate.                     (b) A copy of the contract
                                                The changes to the FAR do not                         However, the contracting officer is not               administration functions delegated to a
                                              impose information collection                           precluded from retaining and executing                contract administration office which
                                              requirements that require the approval                  the COR duties as appropriate. See                    may not be delegated to the COR (see
                                              of the Office of Management and Budget                  7.104(e). A COR—                                      1.602–2(d)(4)); and
                                              under the Paperwork Reduction Act (44                      (1) Must be a Government employee,                    (c) Documentation of COR actions
                                              U.S.C. chapter 35).                                     unless otherwise authorized in agency                 taken in accordance with the delegation
                                                                                                      regulations;                                          of authority.
                                              V. Determination To Issue an Interim                       (2) Shall be certified and maintain
                                              Rule                                                    certification in accordance with the                  PART 2—DEFINITIONS OF WORDS
jlentini on DSKJ8SOYB1PROD with RULES2




                                                A determination has been made under                   Office of Management and Budget                       AND TERMS
                                              the authority of the Secretary of Defense               memorandum entitled ‘‘The Federal
                                              (DoD), the Administrator of General                     Acquisition Certification for Contracting             ■ 5. Amend section 2.101 in paragraph
                                              Services (GSA), and the Administrator                   Officer Technical Representatives’’                   (b)(2) by adding, in alphabetical order,
                                              of the National Aeronautics and Space                   dated November 26, 2007, or for DoD,                  the definition ‘‘Contracting officer’s
                                              Administration (NASA) that urgent and                   DoD Regulations, as applicable;                       representative (COR)’’ to read as follows:


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                         DODIG-2013-120 │ 27
Appendixes



                                                         Federal Acquisition Circular 2005-50 Issued
                                                         March 16, 2011 (cont’d)

                                                            14546             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                                            2.101   Definitions.                                     approved and signed at least one level                requirements, e.g., contract line items
                                                            *     *     *     *     *                                above the contracting officer.                        (CLINS), in a manner that will permit
                                                              (b) * * *                                              *     *    *     *     *                              some, if not all, of the requirements to
                                                              (2) * * *                                              ■ 8. Amend section 7.104 by adding
                                                                                                                                                                           be awarded on a firm-fixed-price basis,
                                                              Contracting officer’s representative                   paragraph (e) to read as follows:                     either in the current contract, future
                                                            (COR) means an individual, including a                                                                         option years, or follow-on contracts.
                                                            contracting officer’s technical                          7.104    General procedures.                          This will facilitate an easier transition to
                                                            representative (COTR), designated and                    *      *     *     *     *                            a firm-fixed-price contact because a cost
                                                            authorized in writing by the contracting                    (e) The planner shall ensure that a                history will be developed for a recurring
                                                            officer to perform specific technical or                 COR is nominated by the requirements                  definitive requirement.
                                                            administrative functions.                                official, and designated and authorized               *     *     *     *      *
                                                            *     *     *     *     *                                by the contracting officer, as early as
                                                                                                                     practicable in the acquisition process.               PART 16—TYPES OF CONTRACTS
                                                            PART 7—ACQUISITION PLANNING                              The contracting officer shall designate
                                                                                                                     and authorize a COR as early as                       ■ 10. Amend section 16.103 by revising
                                                            ■ 6. Amend section 7.102 by adding                                                                             paragraphs (d)(1) and (2) to read as
                                                                                                                     practicable after the nomination. See
                                                            paragraph (a)(3) to read as follows:                                                                           follows:
                                                                                                                     1.602–2(d).
                                                            7.102   Policy.                                          ■ 9. Amend section 7.105 by—                          16.103    Negotiating contract type.
                                                              (a) * * *                                              ■ a. Removing from the first sentence of              *       *    *     *    *
                                                              (3) Selection of appropriate contract                  the introductory text the words ‘‘see                    (d) * * *
                                                            type in accordance with part 16.                         paragraph (b)(19)’’ and adding the words                 (1) Each contract file shall include
                                                            *     *     *    *     *                                 ‘‘see paragraph (b)(21)’’ in their place;             documentation to show why the
                                                                                                                     ■ b. Redesignating paragraphs (b)(3)                  particular contract type was selected.
                                                            ■ 7. Amend section 7.103 by—
                                                            ■ a. Redesignating paragraphs (e)
                                                                                                                     through (b)(21) as paragraphs (b)(4)                  This shall be documented in the
                                                            through (w) as paragraphs (g) through                    through (b)(22), respectively;                        acquisition plan, or if a written
                                                                                                                     ■ c. Adding a new paragraph (b)(3);                   acquisition plan is not required, in the
                                                            (y);
                                                            ■ b. Redesignating paragraph (d) as                      ■ d. Removing from newly redesignated                 contract file.
                                                            paragraph (e);                                           paragraph (b)(5)(i) the words ‘‘contract                 (i) Explain why the contract type
                                                            ■ c. Adding a new paragraph (d);                         type selection (see part 16);’’;                      selected must be used to meet the
                                                            ■ d. Revising newly redesignated                         ■ e. Removing from newly redesignated                 agency need.
                                                            paragraph (e);                                           paragraph (b)(5)(ii)(A) the words ‘‘see                  (ii) Discuss the Government’s
                                                            ■ e. Adding a new paragraph (f); and                     7.103(t)’’ and adding the words ‘‘see                 additional risks and the burden to
                                                            ■ f. Revising newly redesignated                         7.103(v)’’ in its place; and                          manage the contract type selected (e.g.,
                                                            paragraph (j).                                           ■ f. Adding paragraph (b)(5)(iv).                     when a cost-reimbursement contract is
                                                              The added and revised text reads as                       The added text reads as follows:                   selected, the Government incurs
                                                            follows:                                                                                                       additional cost risks, and the
                                                                                                                     7.105 Contents of written acquisition
                                                                                                                     plans.                                                Government has the additional burden
                                                            7.103   Agency-head responsibilities.
                                                                                                                                                                           of managing the contractor’s costs). For
                                                            *      *     *    *      *                               *      *     *    *     *                             such instances, acquisition personnel
                                                               (d) Ensuring that acquisition planners                   (b) * * *                                          shall discuss—
                                                            document the file to support the                            (3) Contract type selection. Discuss                  (A) How the Government identified
                                                            selection of the contract type in                        the rationale for the selection of contract           the additional risks (e.g., pre-award
                                                            accordance with subpart 16.1.                            type. For other than firm-fixed-price                 survey, or past performance
                                                               (e) Establishing criteria and                         contracts, see 16.103(d) for additional               information);
                                                            thresholds at which increasingly greater                 documentation guidance. Acquisition                      (B) The nature of the additional risks
                                                            detail and formality in the planning                     personnel shall document the                          (e.g., inadequate contractor’s accounting
                                                            process is required as the acquisition                   acquisition plan with findings that                   system, weaknesses in contractor’s
                                                            becomes more complex and costly,                         detail the particular facts and                       internal control, non-compliance with
                                                            including for cost-reimbursement and                     circumstances, (e.g., complexity of the               Cost Accounting Standards, or lack of or
                                                            other high-risk contracts (e.g., other than              requirements, uncertain duration of the               inadequate earned value management
                                                            firm-fixed-price contracts) requiring a                  work, contractor’s technical capability               system); and
                                                            written acquisition plan. A written plan                 and financial responsibility, or                         (C) How the Government will manage
                                                            shall be prepared for cost                               adequacy of the contractor’s accounting               and mitigate the risks.
                                                            reimbursement and other high-risk                        system), and associated reasoning                        (iii) Discuss the Government
                                                            contracts other than firm-fixed-price                    essential to support the contract type                resources necessary to properly plan for,
                                                            contracts, although written plans may                    selection. The contracting officer shall              award, and administer the contract type
                                                            be required for firm-fixed-price                         ensure that requirements and technical                selected (e.g., resources needed and the
                                                            contracts as appropriate.                                personnel provide the necessary                       additional risks to the Government if
                                                               (f) Ensuring that the statement of work               documentation to support the contract                 adequate resources are not provided).
                                                            is closely aligned with performance                      type selection.                                          (iv) For other than a firm-fixed price
                                                            outcomes and cost estimates.                             *      *     *    *     *                             contract, at a minimum the
                                                            *      *     *    *      *                                  (5) * * *                                          documentation should include—
              jlentini on DSKJ8SOYB1PROD with RULES2




                                                               (j) Reviewing and approving                              (iv) For each contract (and order)                    (A) An analysis of why the use of
                                                            acquisition plans and revisions to these                 contemplated, discuss the strategy to                 other than a firm-fixed-price contract
                                                            plans to ensure compliance with FAR                      transition to firm-fixed-price contracts              (e.g., cost reimbursement, time and
                                                            requirements including 7.104 and part                    to the maximum extent practicable.                    materials, labor hour) is appropriate;
                                                            16. For other than firm-fixed-price                      During the requirements development                      (B) Rationale that detail the particular
                                                            contracts, ensuring that the plan is                     stage, consider structuring the contract              facts and circumstances (e.g.,


                                                       VerDate Mar<15>2010    18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




28 │ DODIG-2013-120
                                                                                                                                                                                                                  Appendixes



                                           Federal Acquisition Circular 2005-50 Issued
                                           March 16, 2011 (cont’d)

                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                               14547

                                              complexity of the requirements,                         ensure that the contractor’s accounting               PART 32—CONTRACT FINANCING
                                              uncertain duration of the work,                         system will permit timely development
                                              contractor’s technical capability and                   of all necessary cost data in the form                32.1007    [Amended]
                                              financial responsibility, or adequacy of                required by the proposed contract type.
                                                                                                                                                            ■ 14. Amend section 32.1007 by
                                              the contractor’s accounting system), and                This factor may be critical—
                                                                                                        (1) When the contract type requires                 removing from paragraph (a) ‘‘(see
                                              associated reasoning essential to
                                              support the contract type selection;                    price revision while performance is in                42.302(a)(12))’’ and adding ‘‘(see
                                                 (C) An assessment regarding the                      progress; or                                          42.302(a)(13))’’ in its place.
                                              adequacy of Government resources that                     (2) When a cost-reimbursement
                                                                                                      contract is being considered and all                  PART 42—CONTRACT
                                              are necessary to properly plan for,
                                              award, and administer other than firm-                  current or past experience with the                   ADMINISTRATION AND AUDIT
                                              fixed-price contracts; and                              contractor has been on a fixed-price                  SERVICES
                                                 (D) A discussion of the actions                      basis. See 42.302(a)(12).
                                              planned to minimize the use of other                    *      *    *     *    *                              ■  15. Amend section 42.302 by—
                                              than firm-fixed-price contracts on future               ■ 12. Revise section 16.301–2 to read as              ■  a. Removing from the introductory
                                              acquisitions for the same requirement                   follows:                                              text of paragraph (a) the words
                                              and to transition to firm-fixed-price                                                                         ‘‘paragraphs (a)(5), (a)(9), and (a)(11)’’
                                              contracts to the maximum extent                         16.301–2     Application.                             and adding the words ‘‘paragraphs (a)(5),
                                              practicable.                                              (a) The contracting officer shall use               (a)(9), (a)(11), and (a)(12)’’ in their place;
                                                 (v) A discussion of why a level-of-                  cost-reimbursement contracts only
                                                                                                                                                            ■ b. Redesignating paragraphs (a)(12)
                                              effort, price redetermination, or fee                   when—
                                              provision was included.                                   (1) Circumstances do not allow the                  through (a)(26) as paragraphs (a)(13)
                                                 (2) Exceptions to the requirements at                agency to define its requirements                     through (a)(27); and
                                              (d)(1) of this section are—                             sufficiently to allow for a fixed-price               ■ c. Adding a new paragraph (a)(12) to
                                                 (i) Fixed-price acquisitions made                    type contract (see 7.105); or                         read as follows:
                                              under simplified acquisition                              (2) Uncertainties involved in contract
                                              procedures;                                             performance do not permit costs to be                 42.302    Contract administration functions.
                                                 (ii) Contracts on a firm-fixed-price                 estimated with sufficient accuracy to                    (a) * * *
                                              basis other than those for major systems                use any type of fixed-price contract.
                                              or research and development; and                          (b) The contracting officer shall                      (12) Determine the adequacy of the
                                                 (iii) Awards on the set-aside portion                document the rationale for selecting the              contractor’s accounting system. The
                                              of sealed bid partial set-asides for small              contract type in the written acquisition              contractor’s accounting system should
                                              business.                                               plan and ensure that the plan is                      be adequate during the entire period of
                                                                                                      approved and signed at least one level                contract performance. The adequacy of
                                              *       *    *     *     *
                                                                                                      above the contracting officer (see                    the contractor’s accounting system and
                                              ■ 11. Amend section 16.104 by—
                                                                                                      7.103(j) and 7.105). If a written                     its associated internal control system, as
                                              ■ a. Redesignating paragraphs (e)
                                                                                                      acquisition plan is not required, the                 well as contractor compliance with the
                                              through (k) as paragraphs (f) through (l),              contracting officer shall document the                Cost Accounting Standards (CAS), affect
                                              respectively;                                           rationale in the contract file. See also
                                              ■ b. Adding a new paragraph (e);
                                                                                                                                                            the quality and validity of the contractor
                                                                                                      16.103(d).                                            data upon which the Government must
                                              ■ c. Removing from newly redesignated
                                                                                                      ■ 13. Amend section 16.301–3 by                       rely for its management oversight of the
                                              paragraph (f) the words ‘‘incentives to
                                                                                                      revising paragraph (a) to read as follows:            contractor and contract performance.
                                              ensure’’ and adding the words
                                              ‘‘incentives tailored to performance                    16.301–3     Limitations.                             *      *     *    *     *
                                              outcomes to ensure’’ in their place;                      (a) A cost-reimbursement contract
                                              ■ d. Removing from newly redesignated                   may be used only when—                                PART 50—EXTRAORDINARY
                                              paragraph (g) the words ‘‘price                           (1) The factors in 16.104 have been                 CONTRACTURAL ACTIONS AND THE
                                              adjustment terms’’ and adding the words                 considered;                                           SAFETY ACT
                                              ‘‘price adjustment or price                               (2) A written acquisition plan has
                                              redetermination clauses’’ in their place;                                                                     50.205–1    [Amended]
                                                                                                      been approved and signed at least one
                                              and                                                     level above the contracting officer;                  ■  16. Amend section 50.205–1 by
                                              ■ e. Revising newly redesignated                          (3) The contractor’s accounting                     removing from the first sentence in
                                              paragraph (i).                                          system is adequate for determining costs              paragraph (b) the words ‘‘(see FAR
                                                 The added and revised text reads as                  applicable to the contract; and
                                                                                                                                                            7.105(b)(19)(v))’’ and adding the words
                                              follows:                                                  (4) Adequate Government resources
                                                                                                      are available to award and manage a                   ‘‘(see 7.105(b)(20)(v))’’ in their place.
                                              16.104    Factors in selecting contract types.          contract other than firm-fixed-priced                 [FR Doc. 2011–5552 Filed 3–15–11; 8:45 am]
                                              *      *    *    *     *                                (see 7.104(e)) including—                             BILLING CODE 6820–EP–P
                                                 (e) Combining contract types. If the                    (i) Designation of at least one
                                              entire contract cannot be firm-fixed-                   contracting officer’s representative
                                              price, the contracting officer shall                    (COR) qualified in accordance with
                                              consider whether or not a portion of the                1.602–2 has been made prior to award
                                              contract can be established on a firm-                  of the contract or order; and
jlentini on DSKJ8SOYB1PROD with RULES2




                                              fixed-price basis.                                         (ii) Appropriate Government
                                              *      *    *    *     *                                surveillance during performance to
                                                 (i) Adequacy of the contractor’s                     provide reasonable assurance that
                                              accounting system. Before agreeing on a                 efficient methods and effective cost
                                              contract type other than firm-fixed-                    controls are used.
                                              price, the contracting officer shall                    *       *   *     *      *


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00007   Fmt 4701   Sfmt 9990   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                             DODIG-2013-120 │ 29
Appendixes




           Appendix C
           Contract Compliance with Interim Rule Requirements
           (Base Documentation Applies to Orders)

                                             Order                                                                                Accounting   Not-To-Exceed CR
                       Contract Number     Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                           applicable)
              1       W9124A-11-C-0006                    Fort Huachuca         Yes           Yes          Yes          Yes          No               5,976,036
              2       W9124A-12-C-0002                    Fort Huachuca         Yes           Yes          Yes          Yes          No             3,149,053.65
              3       W9128Z-11-D-0006        0002        Fort Huachuca         Yes           Yes          No           Yes          Yes             769,096.62
              4       W9128Z-11-D-0005        0004        Fort Huachuca         Yes           Yes          No           Yes          Yes                      0
              5       W9128Z-11-D-0006        0004        Fort Huachuca         Yes           Yes          No           Yes          Yes            6,091,754.52
              6       W9128Z-11-D-0005        0008        Fort Huachuca         Yes           Yes          No           Yes          Yes                171,000
              7       W9128Z-11-C-0003                    Fort Huachuca         No            Yes          No           No           No             1,925,506.51
              8       W9128Z-11-D-0005                    Fort Huachuca         Yes           Yes          Yes          Yes          Yes            892,000,000
              9       W9128Z-11-D-0006                    Fort Huachuca         Yes           Yes          Yes          Yes          Yes            892,000,000
             10       W9128Z-11-D-0007                    Fort Huachuca         Yes           Yes          Yes          Yes          Yes            892,000,000
             11       W91QUZ-07-D-0005        Y601        Fort Huachuca         No            No           No           No           No               8,801,098
             12       W91RUS-10-D-0001        0003        Fort Huachuca         Yes           Yes          Yes          Yes          No                 357,867
             13       W91RUS-11-D-5001        0026        Fort Huachuca         Yes           Yes          Yes          Yes          No             1,398,910.15
             14       W91RUS-11-C-0010                    Fort Huachuca         Yes           Yes          Yes          Yes          Yes             486,354.00
             15       W91RUS-11-C-0021                    Fort Huachuca         Yes           Yes          No           No           No             1,859,220.15
             16       W91RUS-12-C-0003                    Fort Huachuca         Yes           Yes          No           Yes          Yes            8,673,854.34
             17       W91RUS-12-C-0005                    Fort Huachuca         Yes           Yes          Yes          Yes          No             4,801,622.41
             18       W9128Z-11-C-5000                    Fort Huachuca         Yes           Yes          Yes          Yes          Yes         377,816,773.74
                        Fort Huachuca
                          Subtotal:                                             16            17           10           15           10           3,098,278,147

           Acronyms used throughout Appendix C are defined on the final page of Appendix C.

30 │ DODIG-2013-120
                                                                                                                                                    Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
(Base Documentation Applies to Orders)

                                  Order                                                                                Accounting   Not-To-Exceed CR
          Contract Number       Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                applicable)
  19     W911NF-07-D-0001          1062         Durham–APG           No            Yes          Yes          No           No              199,316.00
  20     W911NF-12-C-0004                       Durham–APG           No            Yes          Yes          Yes          No              516,536.00
  21     W911NF-11-C-0099                       Durham–APG           No            No           No           No           No              714,344.00
  22     W911NF-11-C-0101                       Durham–APG           No            Yes          No           Yes          No              130,000.00
  23     W911NF-08-D-0002          0026         Durham–APG           No            Yes          Yes          Yes          Yes             175,000.00
  24     W911NF-09-D-0006          0003         Durham–APG           No            Yes          Yes          Yes          No              224,588.00
  25     W91CRB-11-D-0004          0001         Durham–APG           No            Yes          Yes          Yes          No              271,848.00
  26     W91CRB-11-D-0001          0002         Durham–APG           No            Yes          Yes          Yes          No              284,602.00
  27     W911NF-11-D-0003          0003         Durham–APG           No            Yes          Yes          Yes          Yes             344,053.00
  28     W91CRB-11-D-0006          0002         Durham–APG           Yes           Yes          Yes          Yes          Yes             454,144.00
  29     W911NF-11-C-0090                       Durham–APG           No            Yes          Yes          Yes          Yes             466,282.00
  30     W911NF-11-C-0081                       Durham–APG           No            Yes          Yes          Yes          Yes             454,968.00
  31     W911NF-12-C-0007                       Durham–APG           No            Yes          Yes          Yes          Yes             369,146.00
  32     W911NF-11-C-0073                       Durham–APG           No            Yes          Yes          Yes          Yes             744,252.00
  33     W911NF-11-C-0256                       Durham–APG           Yes           Yes          Yes          Yes          No              747,231.00
  34     W911NF-11-C-0032                       Durham–APG           No            Yes          Yes          No           Yes             749,769.00
  35     W911NF-11-C-0074                       Durham–APG           No            Yes          Yes          Yes          Yes             749,988.00
  36     W911NF-11-C-0213                      Durham –APG           No            Yes          No           No           No              760,092.00
  37     W911NF-12-C-0018                       Durham–APG           Yes           Yes          Yes          Yes          No              860,505.00

Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                                                                               DODIG-2013-120 │ 31
Appendixes



           Contract Compliance with Interim Rule Requirements (cont’d)
           (Base Documentation Applies to Orders)

                                             Order                                                                                Accounting   Not-To-Exceed CR
                      Contract Number      Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                           applicable)
             38       W911NF-11-C-0084                     Durham–APG           No            Yes          Yes          No           Yes            1,374,644.00
             39       W911NF-11-C-0069                     Durham–APG           No            Yes          Yes          Yes          Yes            1,597,946.00
             40       W911NF-11-C-0268                     Durham–APG           No            Yes          Yes          Yes          Yes            1,745,008.00
             41       W911NF-11-C-0201                     Durham–APG           No            Yes          No           Yes          Yes            1,996,698.00
             42       W911NF-11-C-0216                     Durham–APG           No            Yes          Yes          Yes          Yes            2,914,695.00
             43       W911NF-11-C-0273                     Durham–APG           No            Yes          Yes          Yes          Yes            3,046,315.00
             44       W911NF-11-C-0214                     Durham–APG           No            Yes          Yes          Yes          Yes            3,491,613.00
             45       W911NF-12-C-0001                     Durham–APG           No            Yes          Yes          Yes          Yes            3,499,176.00
             46       W911NF-11-C-0087                    Durham –APG           Yes           Yes          No           No           Yes            3,560,000.00
             47       W911NF-11-C-0266                     Durham–APG           No            Yes          Yes          Yes          Yes            3,605,985.00
             48       W911NF-11-C-0200                     Durham–APG           No            Yes          Yes          Yes          Yes            4,789,938.00
             49       W911NF-11-C-0252                     Durham–APG           Yes           Yes          Yes          Yes          Yes            5,140,811.00
             50       W911NF-12-C-0011                     Durham–APG           No            Yes          Yes          Yes          Yes            6,409,096.00
             51       W911NF-11-C-0261                     Durham–APG           Yes           Yes          Yes          Yes          Yes            8,486,142.00
             52       W911NF-12-C-0028                     Durham–APG           No            Yes          Yes          Yes          Yes            8,987,156.00
             53       W911NF-11-C-0088                    Durham –APG           No            Yes          Yes          Yes          Yes            9,049,949.00
             54       W911NF-12-C-0002                     Durham–APG           No            Yes          Yes          Yes          Yes            9,975,201.00
             55       W911NF-11-C-0210                     Durham–APG           No            Yes          Yes          Yes          Yes          15,844,650.00
             56       W911NF-11-D-0002                     Durham–APG           Yes           Yes          No           Yes          Yes          34,077,057.00

           Acronyms used throughout Appendix C are defined on the final page of Appendix C.




32 │ DODIG-2013-120
                                                                                                                                                    Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
(Base Documentation Applies to Orders)

                                  Order                                                                                Accounting   Not-To-Exceed CR
          Contract Number       Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                applicable)
  57     W911NF-12-C-0037                       Durham–APG           Yes           Yes          Yes          Yes          Yes          76,686,339.00
  58     W911NF-11-D-0001                       Durham–APG           Yes           Yes          Yes          Yes          Yes          94,000,000.00
  59     W911NF-12-C-0017                       Durham–APG           No            Yes          Yes          No           Yes             749,894.00
  60     W911NF-11-C-0052                       Durham–APG           No            Yes          Yes          Yes          Yes             749,939.00
  61     W911NF-12-C-0010                       Durham–APG           No            Yes          Yes          Yes          Yes             742,789.00
  62     W911NF-11-C-0080                       Durham–APG           No            Yes          Yes          Yes          Yes             749,480.00
  63     W911NF-12-C-0019                       Durham–APG           No            Yes          Yes          Yes          Yes             826,927.00
  64     W911NF-11-C-0215                       Durham–APG           No            Yes          Yes          Yes          Yes            2,495,998.00
  65     W911NF-11-C-0253                       Durham–APG           Yes           Yes          Yes          Yes          Yes             749,822.00
  66     W911NF-11-C-0070                       Durham–APG           No            Yes          Yes          Yes          Yes             744,048.00
  67     W911NF-12-C-0016                       Durham–APG           No            Yes          Yes          Yes          Yes             349,708.00
            Durham–APG
              Subtotal:                                              10            48           43           42           39             318,794,688
  68    W911W4-08-D-0002           0023          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                337,382
  69    W911W4-08-D-0002           0024          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                410,959
  70    W911W4-08-D-0002           0025          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,966,043
  71    W911W4-08-D-0002           0026          Fort Belvoir        Yes           Yes          Yes          Yes          Yes            184,695,893
  72    W911W4-08-D-0002           0027          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              8,474,717
  73    W911W4-08-D-0002           0028          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              7,901,371
  74    W911W4-08-D-0002           0029          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              9,936,479

Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                                                                               DODIG-2013-120 │ 33
Appendixes



           Contract Compliance with Interim Rule Requirements (cont’d)
           (Base Documentation Applies to Orders)

                                             Order                                                                                Accounting   Not-To-Exceed CR
                       Contract Number     Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                           applicable)
             75       W911W4-08-D-0002        0030          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,566,466
             76       W911W4-08-D-0002        0031          Fort Belvoir        Yes           Yes          Yes          Yes          Yes             16,231,525
             77       W911W4-08-D-0002        0032          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              8,944,869
             78       W911W4-11-D-0007                      Fort Belvoir        Yes           Yes          Yes          Yes          Yes          9,700,000,000
             79       W911W4-10-D-0020        0002          Fort Belvoir        No            No           No           Yes          No              22,721,311
             80       W911W4-07-D-0002        0014          Fort Belvoir        Yes           No           No           Yes          Yes             13,793,968
             81       W911W4-07-D-0002        0015          Fort Belvoir        Yes           No           No           Yes          Yes                189,234
             82       W911W4-08-D-0001        0154          Fort Belvoir        No            No           No           Yes          No                 337,044
             83       W911W4-09-D-0001        0021          Fort Belvoir        Yes           Yes          No           Yes          Yes            138,394,162
             84       W911W4-09-D-0001        0022          Fort Belvoir        Yes           Yes          No           Yes          Yes              3,015,855
             85       W911W4-09-D-0001        0023          Fort Belvoir        Yes           Yes          No           Yes          Yes             16,241,460
             86       W911W4-11-D-0005                      Fort Belvoir        Yes           Yes          Yes          Yes          Yes          9,700,000,000
             87       W911W4-11-D-0008                      Fort Belvoir        Yes           Yes          Yes          Yes          Yes          9,700,000,000
             88       W911W4-11-D-0003                      Fort Belvoir        Yes           Yes          Yes          Yes          Yes          9,700,000,000
             89       W911W4-11-D-0004                      Fort Belvoir        Yes           Yes          Yes          Yes          No           9,700,000,000
             90       W911W4-07-D-0010        0085          Fort Belvoir        Yes           Yes          Yes          Yes          Yes             19,909,612
             91       W911W4-07-D-0010        0069          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,887,224
             92       W911W4-07-D-0010        0070          Fort Belvoir        Yes           Yes          Yes          Yes          Yes             18,073,726
             93       W911W4-07-D-0010        0074          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                330,475

           Acronyms used throughout Appendix C are defined on the final page of Appendix C.




34 │ DODIG-2013-120
                                                                                                                                                    Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
(Base Documentation Applies to Orders)

                                  Order                                                                                Accounting   Not-To-Exceed CR
          Contract Number       Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                applicable)
  94    W911W4-07-D-0010           0077          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                955,848
  95    W911W4-07-D-0010           0078          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              8,965,872
  96    W911W4-07-D-0010           0079          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                387,729
  97    W911W4-07-D-0010           0080          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                315,864
  98    W911W4-07-D-0010           0081          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                788,693
  99    W911W4-07-D-0010           0082          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              4,400,973
 100    W911W4-07-D-0010           0083          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,894,904
 101    W911W4-07-D-0010           0084          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              3,127,989
 102    W911W4-07-D-0010           0086          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              1,595,032
 103    W911W4-07-D-0010           0087          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                790,087
 104    W911W4-07-D-0010           0088          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              1,539,559
 105    W911W4-07-D-0010           0089          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              7,171,127
 106    W911W4-07-D-0010           0090          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                389,509
 107    W911W4-07-D-0010           0091          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                297,715
 108    W911W4-07-D-0010           0092          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                223,859
 109    W911W4-07-D-0010           0093          Fort Belvoir        Yes           Yes          Yes          Yes          Yes            296,812,744
 110    W911W4-07-D-0010           0094          Fort Belvoir        Yes           Yes          Yes          Yes          Yes                749,273
 111    W911W4-07-D-0010           0095          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,658,724
 112    W911W4-07-D-0010           0096          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              2,711,815

Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                                                                               DODIG-2013-120 │ 35
Appendixes



           Contract Compliance with Interim Rule Requirements (cont’d)
           (Base Documentation Applies to Orders)

                                             Order                                                                                Accounting   Not-To-Exceed CR
                       Contract Number     Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                           applicable)
             113      W911W4-07-D-0010        0098          Fort Belvoir        Yes           Yes          Yes          Yes          Yes              1,578,618
                         Fort Belvoir
                          Subtotal:                                             44            42           39           46           43          49,316,715,710
             114      W9113M-11-C-0054                   Redstone Arsenal       No            No           No           Yes          No                 908,000
             115      W31P4Q-11-C-0183                   Redstone Arsenal       Yes           Yes          Yes          Yes          Yes             39,331,099
             116      W31P4Q-11-C-0155                   Redstone Arsenal       Yes           Yes          No           Yes          No                 685,768
             117      W58RGZ-11-C-0161                   Redstone Arsenal       Yes           Yes          No           Yes          Yes                834,379
             118      W31P4Q-11-C-0163                   Redstone Arsenal       No            No           No           Yes          Yes                729,997
             119      W31P4Q-12-C-0068                   Redstone Arsenal       No            No           No           Yes          Yes              2,084,849
             120      W9113M-11-C-0037                   Redstone Arsenal       No            No           No           Yes          Yes              1,874,980
             121      W9113M-11-C-0036                   Redstone Arsenal       No            No           No           Yes          Yes                757,107
             122      W9113M-11-C-0087                   Redstone Arsenal       No            No           Yes          No           No                 498,883
             123      W9113M-11-C-0086                   Redstone Arsenal       No            No           Yes          No           No                 499,909
             124      W9113M-11-C-0084                   Redstone Arsenal       No            No           Yes          No           Yes                409,752
             125      W9113M-11-C-0082                   Redstone Arsenal       No            No           No           Yes          Yes             18,833,652
             126      W9113M-11-C-0080                   Redstone Arsenal       Yes           Yes          No           Yes          Yes              4,497,341
             127      W9113M-11-C-0054                   Redstone Arsenal       Yes           No           No           Yes          Yes                908,000
             128      W9113M-11-C-0044                   Redstone Arsenal       Yes           Yes          No           Yes          Yes             20,008,586
             129      W31P4Q-11-C-0040                   Redstone Arsenal       No            No           No           Yes          Yes                749,998
             130      W58RGZ-12-C-0046                   Redstone Arsenal       Yes           Yes          Yes          Yes          Yes             29,067,438

           Acronyms used throughout Appendix C are defined on the final page of Appendix C.




36 │ DODIG-2013-120
                                                                                                                                                    Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
(Base Documentation Applies to Orders)

                                  Order                                                                                Accounting   Not-To-Exceed CR
          Contract Number       Number (if      Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                applicable)
 131     W58RGZ-12-C-0045                     Redstone Arsenal       Yes           Yes          Yes          Yes          Yes             29,816,046
 132     W58RGZ-11-C-0093                     Redstone Arsenal       Yes           No           No           Yes          No              23,717,965
 133     W9113M-11-C-0085                     Redstone Arsenal       No            No           No           Yes          Yes                428,095
 134     W9113M-12-C-0005                     Redstone Arsenal       Yes           No           No           Yes          No               9,495,200
 135     W9113M-12-C-0003                     Redstone Arsenal       No            Yes          No           Yes          Yes                752,349
 136     W58RGZ-11-D-0316                     Redstone Arsenal       Yes           Yes          No           Yes          Yes                152,902
 137     W58RGZ-11-D-0304                     Redstone Arsenal       Yes           Yes          No           Yes          Yes                510,453
 138     W9113M-12-C-0006                     Redstone Arsenal       No            No           No           Yes          Yes                781,338
 139     W31P4Q-12-C-0019                     Redstone Arsenal       Yes           No           No           Yes          Yes              2,124,385
 140     W58RGZ-12-C-0026                     Redstone Arsenal       No            Yes          No           No           Yes              1,034,202
 141     W31P4Q-12-C-0027                     Redstone Arsenal       Yes           No           No           Yes          Yes              1,439,542
 142     W31P4Q-11-C-0020                     Redstone Arsenal       Yes           No           No           Yes          Yes                729,924
 143     W31P4Q-10-D-0092          0035       Redstone Arsenal       Yes           Yes          No           Yes          Yes                199,999
 144     W31P4Q-10-D-0072          0010       Redstone Arsenal       Yes           Yes          No           Yes          Yes                653,401
 145     W31P4Q-12-C-0029                     Redstone Arsenal       Yes           Yes          No           Yes          Yes            279,364,696
 146     W58RGZ-09-D-0130          0123       Redstone Arsenal       No            Yes          No           Yes          No                 500,000
 147     W31P4Q-12-C-0091                     Redstone Arsenal       Yes           No           No           Yes          Yes                974,293
 148     W31P4Q-11-D-0019          0008       Redstone Arsenal       Yes           Yes          Yes          Yes          No               3,763,119
 149     W58RGZ-11-D-0145                     Redstone Arsenal       Yes           Yes          Yes          No           Yes              4,305,984

Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                                                                               DODIG-2013-120 │ 37
Appendixes



           Contract Compliance with Interim Rule Requirements (cont’d)
           (Base Documentation Applies to Orders)

                                                Order                                                                               Accounting   Not-To-Exceed CR
                       Contract Number        Number (if     Site Location     Approval   Justification   Transition   Monitoring     System         Value ($)
                                              applicable)
             150      W58RGZ-11-D-0301                      Redstone Arsenal     Yes          Yes            Yes          Yes          Yes                607,585
             151      W31P4Q-11-C-0230                      Redstone Arsenal     No           No             No           Yes          Yes                370,144
             152      W31P4Q-11-C-0226                      Redstone Arsenal     No           No             No           Yes          Yes                716,690
             153      W31P4Q-11-C-0206                      Redstone Arsenal     Yes          No             Yes          Yes          No              10,353,485
             154      W31P4Q-12-C-0106                      Redstone Arsenal     Yes          No             No           No           No                 571,960
             155      W31P4Q-11-C-0054                      Redstone Arsenal     Yes          No             No           Yes          Yes                749,054
             156      W31P4Q-11-C-2011                      Redstone Arsenal     Yes          No             No           Yes          Yes                702,531
             157      W31P4Q-11-C-0237                      Redstone Arsenal     Yes          No             No           Yes          Yes                736,316
             158      W9113M-11-D-0004           0003       Redstone Arsenal     Yes          Yes            Yes          Yes          No                 728,042
             159      W31P4Q-09-D-0010           0155       Redstone Arsenal     Yes          No             No           Yes          Yes                175,000
             160      W31P4Q-09-D-0018           0007       Redstone Arsenal     No           No             No           No           No               1,592,475
             161      W9113M-07-D-0008           0025       Redstone Arsenal     Yes          Yes            Yes          Yes          Yes             41,553,247
                       Redstone Arsenal
                          Subtotal:                                              30            20            12           41           36             542,280,160
                         Total of All
                      Compliant Contracts:                                       100          127            104          144          128
                        Total of All Non-
                      Compliant Contracts                                        61            34            57           17           33
                      Total CR Value of All
                      Contracts Reviewed                                                                                                           53,276,068,705

                            Legend
             APG      Aberdeen Proving Ground
             CR       Cost Reimbursement




38 │ DODIG-2013-120
                                                        Management Comments




Management Comments
AssistantSecretary
Assistant  Secretaryofof
                       thethe Army
                            Army forfor Acquisition,
                                     Acquisition, Logistics,
and Technology
Logistics,      Comments Comments
           and Technology




                   Click to add JPEG file




                                                               DODIG-2013-120 │ 39
Management Comments



                 Assistant Secretary of the Army for Acquisition,
                 Logistics, and Technology Comments (cont’d)




                                  Click to add JPEG file




40 │ DODIG-2013-120
                                                   Management Comments



Assistant Secretary of the Army for Acquisition,
Logistics, and Technology Comments (cont’d)




                 Click to add JPEG file




                                                         DODIG-2013-120 │ 41
Management Comments



                 Assistant Secretary of the Army for Acquisition,
                 Logistics, and Technology Comments (cont’d)




                                  Click to add JPEG file




42 │ DODIG-2013-120
                                        Management Comments


Army Materiel Command Comments
Army Materiel Command Comments




               Click to add JPEG file




                                              DODIG-2013-120 │ 43
Management Comments



                 Army Materiel Command Comments (cont’d)




                                Click to add JPEG file




44 │ DODIG-2013-120
                                          Management Comments



Army Materiel Command Comments (cont’d)




               Click to add JPEG file




                                                DODIG-2013-120 │ 45
Management Comments



                 Army Materiel Command Comments (cont’d)




                                Click to add JPEG file




46 │ DODIG-2013-120
                                          Management Comments



Army Materiel Command Comments (cont’d)




               Click to add JPEG file




                                                DODIG-2013-120 │ 47
Management Comments



                 Army Materiel Command Comments (cont’d)




                                Click to add JPEG file




48 │ DODIG-2013-120
                                          Management Comments



Army Materiel Command Comments (cont’d)




               Click to add JPEG file




                                                DODIG-2013-120 │ 49
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          APG Aberdeen Proving Ground
                      ASA(ALT) Assistant Secretary of the Army for Acquisition, Logistics, and Technology
                          COR Contracting Officer’s Representative
                         DCAA Defense Contract Audit Agency
                           FAC Federal Acquisition Circular
                           FAR Federal Acquisition Regulation
                          SBIR Small Business Innovation Research




50 │ DODIG-2013-120
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
